APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(May 31, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Order and Judgment in a Civil Case in
the United States District Court for
the District of Arizona
(July 10, 2017). . . . . . . . . . . . . . . App. 35
Appendix C Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Ninth Circuit
(July 11, 2019). . . . . . . . . . . . . . . App. 80
Appendix D Arizona Statutory Provisions . . . App. 82
§ 16-321 . . . . . . . . . . . . . . . . . . . . App. 82
§ 16-322 . . . . . . . . . . . . . . . . . . . . App. 84

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16491
D.C. No. 2:16-cv-01019-DGC
[Filed May 31, 2019]
_____________________________
ARIZONA LIBERTARIAN PARTY; )
MICHAEL KIELSKY,
)
Plaintiffs-Appellants,
)
)
v.
)
)
KATIE HOBBS, in her official
)
capacity as Secretary of State )
of Arizona,
)
Defendant-Appellee.
)
_____________________________ )
OPINION
Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Argued and Submitted March 12, 2019
San Francisco, California
Filed May 31, 2019

App. 2
Before: J. Clifford Wallace, A. Wallace Tashima, and
M. Margaret McKeown, Circuit Judges.
Opinion by Judge McKeown
SUMMARY*
Civil Rights / Elections
The panel affirmed the district court’s summary
judgment in favor of Arizona’s Secretary of State in an
action brought by the Arizona Libertarian Party
challenging, under the First and Fourteenth
Amendments, a state law requiring up to 1% of voters
eligible to participate in Arizona’s primary to sign a
nominating petition for a Libertarian candidate to earn
a place on the primary ballot.
Applying the balancing framework set forth in
Anderson v. Celebrezze, 460 U.S. 780 (1983), and
Burdick v. Takushi, 504 U.S. 428 (1992), the panel first
held that the State’s signature requirement imposed a
minimal burden on the Libertarian Party’s right to
access the primary ballot. Accordingly, the panel
determined that a less exacting scrutiny was
appropriate. The panel concluded that Arizona’s
signature requirements reasonably furthered Arizona’s
regulatory interest in preventing voter confusion, ballot
overcrowding, and frivolous candidacies and justified
the modest burden on the Libertarian Party’s right to
ballot access.

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
The panel rejected the Libertarian Party’s
contention that the Arizona law infringed upon its
right to free association by effectively requiring its
candidates to solicit signatures from non-members. The
panel held that any burden on the Libertarian Party’s
associational freedom was modest, and again applying
less exacting scrutiny, the panel credited Arizona’s
important interests to justify the reasonable
requirements.
The panel further rejected the Libertarian Party’s
contention that Arizona’s signature requirement
violated equal protection, noting that the Libertarian,
Democratic, and Republican Parties were all subject to
the same statutory requirements. The panel observed
no equal protection issue in Arizona’s treatment of the
Green Party, a new party that was subject to different
statutory requirements.
COUNSEL
Oliver B. Hall (argued), Center for Competitive
Democracy, Washington, D.C., for PlaintiffsAppellants.
Kara M. Karlson (argued) and Joseph E. La Rue,
Assistant Attorneys General; Mark Brnovich, Attorney
General; Office of the Attorney General, Phoenix,
Arizona; for Defendant-Appellee.

App. 4
OPINION
McKEOWN, Circuit Judge:
Once again, we have before us a challenge to
Arizona’s requirements to earn a place on the ballot.
See, e.g., Ariz. Green Party v. Reagan, 838 F.3d 983 (9th
Cir. 2016); Nader v. Brewer, 531 F.3d 1028 (9th Cir.
2008). The Arizona Libertarian Party challenges under
the First and Fourteenth Amendments a state law
requiring up to 1% of voters eligible to participate in its
primary to sign a nominating petition for a Libertarian
candidate to earn a place on the primary ballot. The
district court granted summary judgment to the
Arizona Secretary of State (the “Secretary”), and we
affirm.
BACKGROUND
Under Arizona law, there are two types of political
parties: “established” parties and “new” parties. A
party is “established” in a jurisdiction if it (i) obtained
at least 5% of the total votes cast in the prior general
election, or (ii) maintains membership exceeding 0.66%
of registered voters in that jurisdiction. Ariz. Rev. Stat.
§ 16-804 (applying to state, county, city, and town
elections). An established party is entitled to
“continued representation” on the general election
ballot. Id. The Libertarian, Democratic, and Republican
Parties are established statewide.1

1

The Libertarian Party satisfies the voter registration
requirement, and the Democratic and Republican Parties satisfy
both requirements. As of January 1, 2019, Arizona had 1.31 million
registered Republicans, 1.17 million registered Democrats, and

App. 5
Before 2016, to qualify for the primary ballot, an
established party candidate needed to submit
signatures2 exceeding a certain percentage (ranging
between 0.5% and 2%, depending on the office sought)
of the party’s registered voters in the jurisdiction where
he sought election. Ariz. Rev. Stat. § 16-322(A) (2015).
A candidate was permitted to submit signatures from
party members, members of any new party, or
unaffiliated registered voters.3 Id. § 16-321(D).
In 2015, the Arizona legislature amended the
signature requirements for established party
candidates. 2015 Ariz. Sess. Laws Ch. 293, §§ 2–3 (H.B.
2608). Now, to qualify for a primary ballot, an
established party candidate must submit signatures
exceeding a certain percentage of “qualified signer[s],”
which include the party’s registered voters, as well as
all new party voters and unaffiliated registered voters.
Ariz. Rev. Stat. § 16-321(F). The amendments reduced
the signature threshold for each office to between
0.25% and 1%. Id. § 16-322(A). In 2016—the first
election governed by the amended rules—there were
32,056 registered Libertarians. Ariz. Sec. of State, Voter
Registration & Historical Election Data, https://azsos.gov/elections/
voter-registration-historical-election-data (last visited May 7,
2019).
2

A voter may only sign one nominating petition per office per
election, unless more than one candidate is to be elected to that
office. Ariz. Rev. Stat. § 16-321(A).

3

As of January 1, 2019, Arizona had 1.25 million unaffiliated
registered voters. Ariz. Sec. of State, Voter Registration &
Historical Election Data, https://azsos.gov/elections/voterregistration-historical-election-data (last visited May 7, 2019).

App. 6
significantly fewer Libertarian candidates on the
primary and general election ballots than in prior
elections. See generally Ariz. Sec. of State, Historical
Election Results & Information, https://azsos.gov/
elections/voter-registration-historical-electiondata/historical-election-results-information (last visited
May 7, 2019) (collecting data for recent Arizona
elections).
A “new” party is subject to different rules. A new
party must first submit a petition for recognition and
signatures from eligible voters exceeding 1.33% of total
votes cast statewide in the prior gubernatorial election.
Ariz. Rev. Stat. §§ 16-801(A), 16-803. After doing so,
the party’s candidates are eligible to pursue placement
on the primary and general election ballots for the next
four years. Ariz. Rev. Stat. § 16-801(B). To retain its
recognition and ballot eligibility at the end of the four
years, the party must either qualify as an established
party or file another petition for recognition and the
accompanying signatures. Id.; see Ariz. Rev. Stat.
§§ 16-803–04.
To qualify for the primary ballot, a new party
candidate must submit signatures exceeding 0.1% “of
the total vote for the winning candidate or candidates
for governor or presidential electors at the last general
election within the district.” Ariz. Rev. Stat. § 16322(C). The Arizona Green Party first qualified as a
new party in 1990, and, never having qualified as an
established party, has successfully re-filed petitions for
new party recognition and the accompanying

App. 7
signatures several times, most recently in 2014.4 Since
the beginning of 2017, Arizona has permitted digital
solicitation and streamlined submission of voter
signatures through an online portal. Ariz. Rev. Stat.
§§ 16-316–18.
Under Arizona law, an established party member
may not vote in another party’s primary, but it is up to
the established parties to decide whether new party
members or unaffiliated voters can participate in their
primaries. See Ariz. Rev. Stat. § 16-467.5 The
Libertarian Party excludes such voters, while the
Democratic and Republican Parties do not.
In April 2016, the Libertarian Party and its
chairman Michael Kielsky (collectively, the
“Libertarian Party”) filed this action challenging the
primary signature requirements. The district court
denied the Libertarian Party’s request for a
preliminary injunction prohibiting enforcement of the
amended requirements for the 2016 election. The
parties filed cross-motions for summary judgment, and,
in July 2017, the district court granted summary
judgment to the Secretary.

4

As of January 1, 2019, the Green Party had 6,450 registered
members in Arizona. Ariz. Sec. of State, Voter Registration &
Historical Election Data, https://azsos.gov/elections/voterregistration-historical-election-data (last visited May 7, 2019).
5

A state may not keep a party from welcoming unaffiliated voters
to participate in its primary, Tashjian v. Republican Party of
Conn., 479 U.S. 208, 213–29 (1986), though it may prohibit party
members from participating in another party’s primary. Clingman
v. Beaver, 544 U.S. 581, 586–97 (2005).

App. 8
ANALYSIS
The Libertarian Party contends that Arizona’s
ballot access scheme violates equal protection and
infringes upon the right to place its candidates on the
ballot6 and the right to free association.7 Only the rules
governing access to the primary election ballot are at
issue on this appeal—the Libertarian Party does not
call into question the rules for earning a place on the
general election ballot. With that in mind, we first set
forth the balancing framework that guides our review
and then explain why Arizona’s rules for accessing the
primary ballot are constitutionally sound.
I. The Anderson/Burdick Balancing Framework
There is an inevitable tension between a state’s
authority and need to regulate its elections and the
First and Fourteenth Amendment rights of voters,
candidates, and political parties. See Storer v. Brown,
415 U.S. 724, 729–30 (1974). To harmonize these
competing demands, we look to Anderson v. Celebrezze,
460 U.S. 780 (1983), and Burdick v. Takushi, 504 U.S.
428 (1992), which provide a “flexible standard” for

6

The Libertarian Party also contends that the statute violates its
right to create and establish a political party. See Norman v. Reed,
502 U.S. 279, 288 (1992). This claim merely recites the right to
access the ballot claim, and it fails for the same reasons. See infra
pp.9–14.
7

The Libertarian Party also appeals the district court’s exclusion
of certain evidence. That issue is moot because summary judgment
for the Secretary is warranted even if we consider the excluded
evidence.

App. 9
reviewing constitutional challenges to state election
regulations:
A court considering a challenge to a state
election law must weigh “the character and
magnitude of the asserted injury to the rights
protected by the First and Fourteenth
Amendments that the plaintiff seeks to
vindicate” against “the precise interests put
forward by the State as justifications for the
burden imposed by its rule,” taking into
consideration “the extent to which those
interests make it necessary to burden the
plaintiff’s rights.”
Burdick, 504 U.S. at 434 (quoting Anderson, 460 U.S.
at 789). We have described this approach as a “sliding
scale”—the more severe the burden imposed, the more
exacting our scrutiny; the less severe, the more relaxed
our scrutiny. Ariz. Green Party, 838 F.3d at 988. To
pass constitutional muster, a state law imposing a
severe burden must be narrowly tailored to advance
“compelling” interests. Norman, 502 U.S. at 289. On
the other hand, a law imposing a minimal burden need
only reasonably advance “important” interests.
Timmons v. Twin Cities Area New Party, 520 U.S. 351,
358 (1997) (quoting Burdick, 504 U.S. at 434).
We now consider each of the Libertarian Party’s
constitutional challenges under the Anderson/Burdick
balancing framework.
II. Right to Access the Ballot
It was long ago established that a state may
condition ballot placement on a “preliminary showing

App. 10
of a significant modicum of support.” Jenness v.
Fortson, 403 U.S. 431, 442 (1971). And there is no
dispute that a state may require a candidate to
demonstrate support from slightly, but not
“substantially,” more than 5% of voters without
imposing a severe burden triggering heightened
scrutiny. Storer, 415 U.S. at 739–40; see Jenness, 403
U.S. at 442; Williams v. Rhodes, 393 U.S. 23, 24–25
(1968) (invalidating 15% requirement). The Libertarian
Party contends that Arizona law imposes an
impermissibly high signature burden, reaching as high
as 30% for certain candidates. Yet, the threshold—and
dispositive—question is which pool of voters we should
consider when measuring this showing.
Under Arizona law, all qualified signers—
Libertarian Party members, unaffiliated registered
voters, and new party members—are eligible to
participate in the Libertarian Party primary and to
sign a Libertarian Party nominating petition. By its
very terms, the statute never requires signatures from
more than 1% of these voters. However, by choice, the
Libertarian Party has barred non-members from voting
in its primary—under party policy, only members can
vote in the primary. And it does not want its
candidates to solicit signatures from non-members; as
a consequence, Libertarian candidates must submit
signatures equal to 11% to 30% of party membership in
their jurisdiction to qualify for the primary ballot.
Thus, our dilemma: is the “significant modicum of
support” measured against all voters eligible under
state law to sign a nominating petition and participate
in the primary? Or do we factor in a party’s decision to
exclude certain eligible voters from its primary and

App. 11
instead consider the
circumscribed pool?

resulting,

significantly

The Supreme Court has never expressly answered
this question, but its framework in ballot access cases
is instructive. The state laws challenged in Norman,
Jenness, and Williams required candidates and parties
seeking placement on the general election ballot to
submit signatures from registered voters equaling a
designated percentage of the general election
electorate.8 The Court’s approach in these cases was
straightforward: it determined whether the required
signatures represented a reasonable share of the voters
eligible to participate in the upcoming election. See
Norman, 502 U.S. at 295; Jenness, 403 U.S. at 438–40,
442; Williams, 393 U.S. at 24–25, 30–34. In American
Party of Texas9 and Storer, the state laws imposed
similar requirements, with an additional limitation: a
voter who participated in another party’s primary or
convention or signed another candidate’s petition was
ineligible to sign a nominating petition.10 In both cases,

8

The laws challenged in Norman and Williams approximated the
electorate by reference to the number of voters who participated in
the preceding general election. Norman, 502 U.S. at 282 n.2;
Williams, 393 U.S. at 24–25. The law challenged in Jenness
approximated the electorate by reference to the number of
registered voters during the previous general election. 403 U.S. at
432–33.

9

Am. Party of Tex. v. White, 415 U.S. 767 (1974).

10

Like the laws challenged in Norman and Williams, those at issue
in American Party of Texas and Storer approximated the electorate
by reference to the number of voters who participated in the

App. 12
the Court determined whether the required signatures
represented a reasonable share of the “available pool”
of signers, i.e., voters who had not disqualified
themselves by participating in another primary or
convention or by signing a previous petition. Storer,
415 U.S. at 739–40; see Am. Party, 415 U.S. at 774–91.
In each of these cases, the Court asked whether the
required signatures constituted an unfairly large
percentage of those voters eligible under state law to
offer their signatures. There was no adjustment to
account for the significant portion of this pool
comprised of registered members of other parties,
many of whom, it can be reasonably presumed, were
unlikely to help nominate a competing candidate or
party. Nor was there any suggestion that a candidate
should be limited to seeking signatures from voters
who have already pledged their support to the
candidate or his party or cause. Rather, the Court time
and again affirmed that requiring a demonstration of
“significant, measurable quantum of community
support” does not impose a severe burden. Am. Party,
415 U.S. at 782.
We invoked a similar analysis in Nader v. Cronin,
620 F.3d 1214, 1217 (9th Cir. 2010). And we do so
again here. Arizona law permits all qualified
signers—Libertarian Party members, new party
members, and registered unaffiliated voters—to sign a
Libertarian candidate’s nominating petition and to vote
in the Libertarian primary. However, qualified signers

preceding general election. Am. Party, 415 U.S. at 774–75 &
nn.6–7; Storer, 415 U.S. at 726–27, 739–40.

App. 13
who already signed another candidate’s nominating
petition are excluded from the “available pool” of voters
able to sign a Libertarian candidate’s petition.
No evidence suggests that, in practice, the statute’s
(at most) 1% signature requirement even approaches
5% of this remaining pool of eligible signers. It falls
upon the Libertarian Party to demonstrate that
Arizona imposes a severe burden, and it has failed to
do so here. The party’s policy choice to exclude all nonmembers from its primary and its preference to obtain
signatures only from party members do not change the
calculus. To hold otherwise would permit a party to
determine the number of signatures required by
manipulating its nominating petition and primary
voting requirements. At the same time, the Libertarian
Party’s proposed rule would incentivize parties to have
fewer registered members and therefore artificially
reduce the signature requirements. Just as important:
where, in this scheme, is the offensive state action?
There is no question that the signature requirement
would be constitutional if the Libertarian Party
permitted non-members to vote in its primary. A
political party cannot manipulate its internal
preferences and processes to transform a constitutional
statute into an unconstitutional one.11

11

Neither of the cases cited by the Libertarian Party persuades us
otherwise. One addressed a law that made it “impossible either
absolutely . . . or practically” for a candidate to meet a signature
requirement. See Consumer Party v. Davis, 633 F. Supp. 877, 883
(E.D. Pa. 1986). The other struck down signature requirements
because they imposed disparate requirements on similarly situated
parties that were, the state conceded, impossible to justify. In re

App. 14
Crucially, Arizona law does not impose any other
requirements, such as a strict time period for signature
collection, that might nonetheless render the 1%
requirement “an impossible burden” or “an impractical
undertaking.” Storer, 415 U.S. at 740 (requiring 1,000
canvassers to collect 14 signatures each day for 24 days
likely imposes a modest burden); see Clingman, 544
U.S. at 589–90 (limiting a party’s internal structure,
decision-making processes, and ability to communicate
with the electorate likely imposes a severe burden);
Timmons, 520 U.S. at 363 (same); Anderson, 460 U.S.
at 790–94 (requiring an independent candidate to file
several months before party conventions imposes
severe burden); Am. Party, 415 U.S. at 778–81
(requiring all signatures to be notarized and submitted
in 55-day period does not impose severe burden);
Jenness, 403 U.S. at 434, 438 (permitting 180 days for
collection of nominating signatures and requiring
submission of signatures five months before election
does not impose severe burden); Williams, 393 U.S. at
24–25 & n.1 (conditioning minor party’s ballot access
on formation of statewide and county-level party
committees, participation in a national party
convention, and submission of nominating signatures
by an early deadline exclusively from voters who never
voted in a previous election imposes significant
burden). To the contrary, Arizona permits candidates
to solicit and submit signatures through an easy-to-use
and streamlined online portal. A candidate collecting
hand-written signatures must, in practice, collect more

Candidacy of Indep. Party Candidates v. Kiffmeyer, 688 N.W.2d
854, 859–61 (Minn. 2004).

App. 15
than the minimum number of signatures required
because, inevitably, some will be deemed ineligible. In
contrast, signatures submitted through the online
portal are instantaneously verified, thereby reducing
the need to submit signatures above the threshold.
The limited evidence describing the Libertarian
Party’s modest efforts to mobilize voters and several
candidates’ unsuccessful write-in campaigns fails to
establish that, in practice, Arizona law “imposes
insurmountable obstacles” to getting on the primary
ballot. Am. Party, 415 U.S. at 784. Nor does the simple
fact that the Libertarian Party had more candidates on
past primary and general election ballots reflect such
an obstacle under the amended rules. See Munro v.
Socialist Workers Party, 479 U.S. 189, 196–97 (1986).
Accordingly, we apply “less exacting” scrutiny because
Arizona law imposes a minimal burden on the
Libertarian Party’s right to access the primary ballot.
Timmons, 520 U.S. at 358; see Cronin, 620 F.3d at
1218.
We now turn to whether Arizona has an “important
regulatory interest” that justifies this modest burden.
Timmons, 520 U.S. at 358 (quoting Burdick, 504 U.S.
at 434). Arizona’s asserted interests in preventing voter
confusion, ballot overcrowding, and frivolous
candidacies are important interests that have justified
equally, if not more, burdensome general election ballot
restrictions. See Munro, 479 U.S. at 194–95. These
interests are also important in the primary context,
given the “obvious and strong interconnection” between
primary and general elections, which together operate
as a “single instrumentality for choice of officers.” Pub.

App. 16
Integrity All., Inc. v. City of Tucson, 836 F.3d 1019,
1026 (9th Cir. 2016) (quoting Smith v. Allwright, 321
U.S. 649, 660 (1944)); see Storer, 415 U.S. at 735 (A
primary election “functions to winnow out and finally
reject all but the chosen candidates.”). Conditioning
primary ballot placement on a demonstration of
significant community support advances Arizona’s
interests in the administration of its primary and
general elections. See Anderson, 460 U.S. at 788–89; see
also Jenness, 403 U.S. at 442; Munro, 479 U.S. at
193–94.
Because we neither require “a particularized
showing of the existence of voter confusion, ballot
overcrowding, or the presence of frivolous candidacies,”
Munro, 479 U.S. at 194–95, nor proof that ballot rules
are “the only or the best way to further the proffered
interests,” Dudum v. Arntz, 640 F.3d 1098, 1114 (9th
Cir. 2011), Arizona has easily met its burden. The
primary signature requirements reasonably further
Arizona’s important regulatory interests and therefore
justify a modest burden on the Libertarian Party’s
right to ballot access.
III. Right to Free Association
The Libertarian Party contends that Arizona law
infringes upon its right to free association by effectively
requiring its candidates to solicit signatures from nonmembers. Although the Constitution protects a political
party’s right to not associate with non-members, that
right has its limits. U.S. Civil Serv. Comm’n v. Nat’l
Ass’n of Letter Carriers, AFL-CIO, 413 U.S. 548, 567
(1973). We first ask whether Arizona in any way
“forces” the Libertarian Party to associate with non-

App. 17
members. Cal. Democratic Party v. Jones, 530 U.S. 567,
577, 581–82, 586 (2000). If so, we then consider
whether such forced association creates a “risk that
nonparty members will skew either primary results or
candidates’ positions.” Ariz. Libertarian Party, Inc. v.
Bayless, 351 F.3d 1277, 1282 (9th Cir. 2003). We
answer both questions in the negative.
Unlike the state laws at issue in Jones and Bayless,
Arizona law permits political parties to exclude nonmembers from voting in their primaries. At their
option, Libertarian candidates may use signatures from
non-party members to qualify for the primary
ballot—but Arizona law does not require them to do so.
Soliciting non-member signatures would seemingly
prove helpful in placing more candidates on the
primary ballot, but it is the Libertarian Party’s modest
membership, not a “state-imposed restriction on [its]
freedom of association,” that imposes upon it this “hard
choice.” Jones, 530 U.S. at 584.12
We acknowledge, without deciding, that there may
be some point where the ratio between party members
and required signatures constitutes de facto forced

12

In Jenness, the Supreme Court noted that, for an independent or
minor party candidate seeking “signatures of 5% of the eligible
electorate[,] . . . the way is open [because] Georgia imposes no
suffocating restrictions whatever upon the free circulation of
nominating petitions.” 403 U.S. at 438. The Court identified
various limitations on signature collection that could be, but were
not, imposed under Georgia law. Id. at 438–39. That a minor party
candidate would likely obtain signatures from non-party members
was presupposed by the Court, not as a bug of this system, but as
a positive feature. Id.

App. 18
association with non-members. For example, if the
signature requirement exceeded the number of party
members, then a candidate necessarily would, as a
matter of arithmetic, have to solicit non-member
signatures to qualify for the ballot. But we face no such
situation here. Libertarian candidates can qualify for
the primary ballot with signatures from 11% to 30% of
party members in their jurisdictions, and no evidence
suggests it is impossible to do so as a practical matter.
Even if collecting these signatures is difficult, we
expect “[h]ard work and sacrifice by dedicated
volunteers” in the operation of “any political
organization.” Am. Party, 415 U.S. at 787. Such
expectations do not in any way “force” Libertarian
candidates or voters to associate with non-members.
Nor has the Libertarian Party demonstrated that
the solicitation and submission of some non-member
signatures “will skew either primary results or
candidates’ positions.” Bayless, 351 F.3d at 1282. We
decline to embrace such a speculative conclusion. Any
burden on the Libertarian Party’s associational
freedom is modest, so we again apply less exacting
scrutiny and, as above, credit Arizona’s important
interests to justify these reasonable requirements. See
Timmons, 520 U.S. at 358.
IV. Equal Protection
Finally, the Libertarian Party contends that the
signature requirements violate equal protection
because they impose lesser burdens on other parties.13
13

Despite their differences, we assume, without deciding, that the
Libertarian Party is similarly situated to the Democratic,

App. 19
The Libertarian, Democratic, and Republican Parties
are all established parties subject to the same statutory
requirements. Although, on its face, Arizona law treats
them identically, we look to see whether the
requirements provide “a real and essentially equal
opportunity for ballot qualification.” Am. Party, 415
U.S. at 788. That standard is clearly satisfied here. A
Libertarian candidate vying for the primary ballot
actually faces a significantly lower burden than his
Democratic and Republican counterparts. For example,
a statewide Libertarian candidate needs to submit
approximately 3,200 signatures, compared to 6,000 and
6,400 signatures for the Democratic and Republican
competitors, respectively. See Ariz. Rev. Stat. § 16322(A)(1); Ariz. Sec. of State, Voter Registration &
Historical Election Data, https://azsos.gov/elections/
voter-registration-historical-election-data (last visited
May 7, 2019).14
That a Libertarian candidate must submit
signatures representing a higher percentage of his
party membership than a Democratic or Republican
candidate is a consequence of the Libertarian Party’s
modest size, not a fatal flaw of the statutory scheme.
The Supreme Court has indicated that an analogous
imbalance lacks constitutional significance. In Illinois
State Board of Elections v. Socialist Workers Party, the
Republican, and Green Parties and that the Equal Protection
Clause applies. See Cronin, 620 F.3d at 1218.
14

Of course, the signature ratio between parties varies within each
political subdivision, as voters are not perfectly distributed
throughout the state. The statewide figures are sufficiently
representative for our purposes.

App. 20
Court struck down on equal protection grounds a state
law requiring local candidates to submit substantially
more signatures to qualify for the ballot than statewide
candidates. 440 U.S. 173, 186–87 (1979). The remedy:
imposing the same, 25,000 signature requirement for
both local and statewide candidates, even though the
eligible voter pool for statewide candidates was six
times larger than for certain local candidates. See id. at
183–87. If such an outcome comports with equal
protection, then surely so does the situation here.
Even if we assume that the signature requirements
impose a marginally higher burden on the Libertarian
Party, that additional burden is far from severe. Cf.
Williams, 393 U.S. at 25 (striking down state law that
imposed “substantially smaller burdens” on certain
parties, while making it “virtually impossible” for
others to place a candidate on the ballot). Under less
exacting scrutiny, we again conclude that the same
important regulatory interests justify the signature
requirements. In setting the threshold for a “significant
modicum of support,” Jenness, 403 U.S. at 442, a state
must use either an absolute number of voters or a
percentage of some group. Not only is it
mathematically impossible to craft a statute where the
burden on each party is identical under both
measurements, Arizona has no obligation to seek such
precision. See Dudum, 640 F.3d at 1114 (recognizing
regulations need not be “narrowly tailored”). Nor was
Arizona required to replicate or fold in the preexisting
burdens on each party when it amended the ballot
access rules in 2015. Cf. Ohio Democratic Party v.
Husted, 834 F.3d 620, 623 (6th Cir. 2016) (rejecting an
argument “creat[ing] a ‘one-way ratchet’ that would

App. 21
discourage states from” increasing ballot access, “lest
they be prohibited by federal courts from later
modifying their election procedures in response to
changing circumstances”). Arizona’s choice to set the
threshold as a percentage of qualified signers for each
established party was neither discriminatory nor
unreasonable.
Arizona opted to apply these signature
requirements for all parties that have a significant
membership and therefore exempt such parties from
the quadrennial party-wide recertification
requirements imposed on new parties. This policy
affords significant benefits to all established parties
and furthers the state’s interests in avoiding voter
confusion, minimizing clutter on the primary and
general ballots, and eliminating frivolous candidacies.15
We likewise observe no equal protection issue in
Arizona’s treatment of the Green Party, a new party
subject to different statutory requirements. When, as
here, we “examin[e] differing treatments of [different
types of political parties], . . . [i]n determining the
nature and magnitude of the burden that [the state’s]
election procedures impose on the [complaining party],
we must examine the entire scheme regulating ballot

15

The Libertarian Party’s reliance on Kiffmeyer is, once again,
unpersuasive. There, two minor political parties were subject to
the same ballot access rules; under those rules, one party had all
of its candidates placed on the general election ballot, and the
other had none on the ballot, even though the latter received
significantly more votes in the primary. Kiffmeyer, 688 N.W.2d at
859–61. Minnesota conceded that its these rules were arbitrary
and lacked any “rational . . . purpose.” Id. at 861.

App. 22
access.” Cronin, 620 F.3d at 1217 (internal quotations
and citation omitted). Equal protection is violated when
one set of requirements is “inherently” or “invidiously”
more burdensome than the other. Am. Party, 415 U.S.
at 781; Jenness, 403 U.S. at 440–41; Cronin, 620 F.3d
at 1218–19.
The Libertarian Party’s chief complaint is that
Green Party candidates qualified for the 2016 primary
ballot with significantly fewer signatures than
Libertarian candidates for the same races.16 This
argument fails to account for the significant
quadrennial re-filing burden placed on the Green Party
to retain its new party status. Every four years, the
Green Party, which currently boasts less than 6,500
members, must submit more than 20,000 signatures for
its candidates to be eligible to pursue placement on the
ballot. That is, signatures from three times more voters
than it has registered members. Meeting the re-filing
requirements is “an all-consuming endeavor” for the
Green Party, which relies on “a core group of about 10
volunteers” to work “every weekend on Saturdays and
Sundays for several hours each” for more than a year.
It is only once this step is complete that the modest
individual candidate signature thresholds apply. Thus,
16

The Libertarian Party also complains that a write-in new party
candidate automatically qualifies for the general election ballot by
winning his primary, while a write-in established party candidate
only qualifies for the general election ballot if he wins his primary
with votes equaling the number of signatures needed to qualify for
the primary ballot. See Ariz. Rev. Stat. § 16-645(D)–(E). Because
the Libertarian Party expressly disclaims any challenge to
Arizona’s general election ballot access requirements, we do not
consider this argument.

App. 23
it is obvious that the primary ballot signature
requirements for the Libertarian Party are not
“inherently” or “invidiously” more burdensome than
those imposed on the Green Party. Am. Party, 415 U.S.
at 781; Jenness, 403 U.S. at 440–41. To be sure, “[t]he
procedures are different, but the Equal Protection
Clause does not necessarily forbid the one in preference
to the other.” Am. Party, 415 U.S. at 781–82.
CONCLUSION
Arizona has no “constitutional imperative to reduce
voter apathy or to ‘handicap’ an unpopular [party] to
increase the likelihood that [its] candidate[s] will”
qualify for the primary ballot. Munro, 479 U.S. at 198.
The state’s signature requirements are reasonable
restrictions that impose, at most, a modest burden on
the Libertarian Party’s First and Fourteenth
Amendment rights, while directly advancing Arizona’s
important regulatory interests. The district court
correctly granted summary judgment to the Secretary.
AFFIRMED.

App. 24
https://azsos.gov/elections/voter-registration-historicalelection-data/[5/24/2019 1:48:27 PM]
Voter Registration & Historical Election Data |
Arizona Secretary of State
Agencies Services OpenBooks Citizens Aide AZ.Gov
KATIE HOBBS
SECRETARY OF STATE

STATE OF ARIZONA
SEARCH

ELECTIONS
BUSINESS SERVICES
ABOUT THE OFFICE

RULES

Home » Elections » Voter Registration & Historical
Election Data
Contact Us
Office of the Secretary of State
Elections Division
1700 W Washington St Fl 7
Phoenix AZ 85007-2808
Email Elections
602-542-8683
1-877-THE VOTE
ELECTIONS
Elections Calendar & Upcoming Events
Voting In This Election
Campaign Finance & Reporting

App. 25
Running for Office
Sign a Candidate Petition or Give $5 Qualifying
Contribution
Information about Recognized Political Parties
Initiative, Referendum & Recall
Requirements for Paid & Non-Resident Circulators
Voter Registration & Historical Election Data
Historical Election
Results & Information
Voter Registration Counts
Arizona Election Laws & Publications
Lobbyists
Voter Registration & Historical Election Data
Voter Registration Statistics - January 1, 2019*
PARTY NAME
REGISTERED VOTERS
Democratic
1,170,825
Green
6,450
Libertarian
32,056
Republican
1,312,638
Other
1,252,047
Total
3,774,016
*Voter registration statistics are calculated as
prescribed by A.R.S. § 16-168(G)

App. 26
Most Recent Voter Registration Report (PDF)
View Past Years’ Registration Numbers
Historical Election Information
General Election Information
1998-2016
Election
Year
(Click for
more
information)
2018
2016
2014
2012
2010
2008
2006
2004
2002
2000
1998

Registered
Voters
3,716,263
3,588,466
3,235,963
3,124,712
3,146,418
2,987,451
2,568,401
2,643,331
2,229,180
2,173,122
2,264,301

Ballots
Cast
2,409,910
2,661,497
1,537,671
2,323,579
1,750,840
2,320,851
1,533,032
2,038,069
1,255,615
1,559,520
1,037,550

Voter
Turnout
(%)
64.85
74.17
47.52
74.36
55.65
77.69
60.47
77.10
56.33
71.76
45.82

App. 27
Primary Election Information
1998-2018
Election
Year
(Click for
more
information)
2018
2016
2014
2012
2010
2008
2006
2004
2002
2000
1998

Registered
Voters
3,632,337
3,400,628
3,247,146
3,100,575
3,102,876
2,799,390
2,533,308
2,440,144
2,207,450
2,042,462
1,921,565

Ballots
Cast
1,208,113
989,754
877,270
870,875
933,650
638,348
584,526
602,888
557,437
486,836
377,855

Voter
Turnout
(%)
33.26
29.10
27.02
28.09
30.09
22.80
23.07
24.71
25.25
23.84
19.66

View Previous Election Years (2018-1974)
Contact Us
Arizona Secretary of State
1700 W Washington
St Fl 7
Phoenix AZ 85007
Find in Google Maps

Phone: 602-542-4285

App. 28
STATEWIDE POLICIES
SITE MAP WEBSITE
POLICIES
CONTACT US
STAFF LOGIN
cited in Arizona Libertarian Party v. Hobbs
No. 17-16491 archived on May 24, 2019
https://azsos.gov/elections/voter-registration-historicalelection-data/ [5/24/2019 1:48:27 PM]

App. 29
https://azsos.gov/elections/voter-registration-historicalelection-data/historical-election-resultsinformation[5/24/2019 1:49:09 PM]
Historical Election Results & Information Arizona |
Secretary of State
Agencies Services OpenBooks Citizens Aide AZ.Gov
KATIE HOBBS
SECRETARY OF STATE

STATE OF ARIZONA
SEARCH

ELECTIONS
BUSINESS SERVICES
ABOUT THE OFFICE

RULES

Home » Elections » Voter Registration & Historical
Election Data » Historical Elections Results &
Information
Contact Us
Office of the Secretary of State
Elections Division
1700 W Washington St Fl 7
Phoenix AZ 85007-2808
Email Elections
602-542-8683
1-877-THE VOTE
ELECTIONS
Elections Calendar & Upcoming Events
Voting In This Election

App. 30
Campaign Finance & Reporting
Running for Office
Sign a Candidate Petition or Give $5 Qualifying
Contribution
Information about Recognized Political Parties
Initiative, Referendum & Recall
Requirements for Paid & Non-Resident Circulators
Voter Registration & Historical Election Data
Historical Election
Results & Information
Voter Registration Counts
Arizona Election Laws & Publications
Lobbyists
Historical Election Results & Information
2018 Election Information
2016 Election Information
2014 Election Information
2012 Election Information
2011 Special Recall Election Information
2010 Election Information
2008 Election Information
2006 Election Information

App. 31
2004 Election Information
2002 Election Information
2000 Election Information
1998 Election Information
1996 Election Information
• General Election Canvass PDF
• General Election Precinct Level Results by County
(File Formats provided by County, see index.xls)
• 1996 Presidential Preference Election Canvass
(PDF)
• 1996 General Election Unofficial Results
• 1996 Primary Election Unofficial Results
• Primary Election Canvass PDF
• Primary Election Precinct Level Results by County
(File Formats provided by County, see index.xls)
• Ballot Propositions PDF
1994 Election Information
• General Election Canvass PDF
• General Election Precinct Level Results by County
(File Formats provided by County, see index.xls)
• Primary Election Canvass PDF
• Primary Election Precinct Level Results by County
(File Formats provided by County, see index.xls)

App. 32
• Ballot Propositions PDF
1992 Election Information
• General Election Canvass PDF
• General Election Precinct Level Results by County
(File Formats provided by County, see index.xls)
• Primary Election Canvass PDF
• Primary Election Precinct Level Results by County
(File Formats provided by County, see index.xls)
• Ballot Propositions (Publicity Pamphlet) PDF
1990 Election Information
• General Election Canvass PDF
• Ballot Propositions (Publicity Pamphlet) in English
PDF
• Proposiciones en la Boleta Electoral (Folleto
Publicitario) en Español PDF
1988 Election Information
• General Election Canvass PDF
• Ballot Propositions (Publicity Pamphlet) in English
PDF
• Proposiciones en la Boleta Electoral (Folleto
Publicitario) en Español PDF

App. 33
1986 Election Information
• General Election Canvass PDF
• Ballot Propositions (Publicity Pamphlet) in English
PDF
• Proposiciones en la Boleta Electoral (Folleto
Publicitario) en Español PDF
1984 Election Information
• General Election Canvass PDF
• Ballot Propositions - Call the office
1982 Election Information
• General Election Canvass PDF
• Ballot Propositions - Call the office
1980 Election Information
• General Election Canvass PDF
• Ballot Propositions - Call the office
1978 Election Information
• General Election Canvass PDF
• Ballot Propositions - Call the office
1976 Election Information
• General Election Canvass PDF
• Ballot Propositions - Call the office

App. 34
1974 Election Information
• General Election Canvass PDF
• Ballot Propositions - Call the office
Contact Us
Arizona Secretary of State

Phone: 602-542-4285

1700 W Washington
St Fl 7
Phoenix AZ 85007
Find in Google Maps
STATEWIDE POLICIES
SITE MAP WEBSITE
POLICIES
CONTACT US
STAFF LOGIN
cited in Arizona Libertarian Party v. Hobbs
No. 17-16491 archived on May 24, 2019
https://azsos.gov/elections/voter-registration-historicalelection-data/historical-election-results-information
[5/24/2019 1:49:09 PM]

App. 35

APPENDIX B
WO
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-16-01019-PHX-DGC
[Filed July 10, 2017]
________________________________
Arizona Libertarian Party, et al., )
)
Plaintiffs,
)
)
v.
)
)
Michele Reagan,
)
)
Defendant.
)
________________________________ )
ORDER
Plaintiffs Arizona Libertarian Party (“AZLP”) and
Michael Kielsky, the party’s chairman and a candidate
for public office, challenge the constitutionality of
A.R.S. §§ 16-321 and 16-322 as amended in 2015 by
H.B. 2608. Doc. 42. Plaintiffs have filed a motion for
summary judgment. Doc. 63. Defendant Michele
Reagan, the Arizona Secretary of State (“the
Secretary”), has filed a cross-motion for summary
judgment. Doc. 69. The motions are fully briefed (Docs.
63, 69, 71, 73), and the Court heard oral argument on

App. 36
June 28, 2017. For the reasons that follow, the Court
will deny Plaintiffs’ motion and grant the Secretary’s
motion.
I. Background.
Arizona law provides that a party qualifies for
continued representation on the general ballot if its
registered members compromise at least two-thirds of
one percent of total registered voters. A.R.S. § 16-804.
A party that does not meet this requirement may
qualify to appear on the ballot by filing a petition
signed by a number of qualified voters equal to or
greater than one and one-third percent of the total
votes cast for governor in the immediately preceding
general election. A.R.S. § 16-801(A). It is undisputed
that AZLP qualifies for continued representation on the
general election ballot. Doc. 64 at 2, ¶ 4; Doc. 70 at 2,
¶ 4.1
When a candidate from a continued-representation
party wishes to have her name appear on the general
election ballot, she must follow one of two paths. The
candidate may, on a specified date before her party’s
primary election, file a nomination petition that
includes a specified number of signatures from voters
in the relevant jurisdiction. See A.R.S. §§ 16-322(A), 16314(A). The candidate must then win the primary by
receiving more votes than any other candidate from her
party. A.R.S. § 16-645(A). Alternatively, she may
1

Parties may also qualify for continued representation if its
members cast 5% of the total votes for governor or presidential
electors in the last general election. A.R.S. § 16-804(A). AZLP does
not qualify using this method.

App. 37
qualify for the general election as a write-in candidate.
A.R.S. § 16-312(A). This path also requires the filing of
a nomination petition before the primary election, but
the petition need not be supported by voter signatures.
Instead, the candidate must win the primary election
and receive a number of write-in votes “equivalent to at
least the same number of signatures required by § 16322 for nominating petitions for the same office.” A.R.S.
§ 16-645(E).
H.B. 2608 became effective on July 3, 2015. Doc. 12
at 3. Among other changes, it altered the pool of
persons from which candidates affiliated with a
political party can collect signatures for nomination
petitions. Under the old system, a candidate could
collect signatures only from people who were qualified
to vote in the candidate’s primary election. See 2015
Ariz. Sess. Laws Ch. 293, §§ 2-3 (H.B. 2608). Thus, if a
candidate’s party chose to hold an open primary, the
candidate could collect signatures from registered party
members, registered independents, and unaffiliated
voters. If a candidate’s party opted for a closed
primary, the candidate could collect signatures only
from registered members of her party.
H.B. 2608 redefined the pool of eligible signers –
referred to in the bill as “qualified signers” – to include
(1) registered members of the candidate’s party,
(2) registered members of a political party that is not
entitled to continued representation on the ballot under
A.R.S. § 16-804, and (3) voters who are registered as
independent or having no party preference. A.R.S. § 16321(F). This redefined pool applies whether a
candidate’s party holds an open or a closed primary.

App. 38
This pool of “qualified signers” is larger than the
pool available before H.B. 2608 for candidates whose
parties hold closed primaries. Although H.B. 2608
lowered the prescribed percentage of the pool from
which candidates must obtain signatures, it actually
increased the number of signatures closed-primary
candidates must obtain by increasing the pool of
signers against which the percentage is measured. See
2015 Ariz. Sess. Laws Ch. 293, § 3 (H.B. 2608).
The increase is significant for AZLP candidates. For
example, an AZLP candidate competing in legislative
district 11 in 2012 needed to collect 25 signatures to
access the primary ballot, or 25 write-in votes to access
the general election ballot. Doc. 1 at 36, ¶ 2. In 2016,
the new law required an AZLP candidate in district 11
to obtain 220 signatures or write-in votes, a number
which represents 26.12% of registered AZLP members
in the district. Id. at 38, ¶ 9. AZLP candidates seeking
other Arizona offices face similar increases in both raw
numbers and percentages of registered AZLP members.
Id. at 36-37, ¶ 3; 38, ¶ 10 (congressional district 1
increased from 60 to 636 signatures or write-in votes,
or 25.75% of AZLP members in the district); id. at 40,
¶¶ 2-3 (Arizona Corporation Commission increased
from 130 to 3,023 signatures or write-in votes, or 11.9%
of AZLP members state-wide); id. at 50, ¶¶ 10-11
(Maricopa County Attorney increased from 88 to 1,881
signatures or write-in votes, or 11.18% of AZLP
members in Maricopa County).
Plaintiffs filed a motion for a preliminary
injunction, asking the Court to enjoin application of
A.R.S. §§ 16-321 and 16-322 to write-in candidates in

App. 39
the 2016 election. They asked the Court to order the
Secretary to place write-in candidates on the general
election ballot if they win the AZLP primary and
receive the number of write-in votes required before the
passage of H.B. 2608. Doc. 18 at 5. The Court denied
the motion, finding that Plaintiffs had not
demonstrated a likelihood of success on the merits.
Doc. 34. The Court considered only the
constitutionality of the write-in method for achieving
ballot access, and did not consider the petition
signatures method. On this summary judgment motion,
the Court considers Arizona’s procedures for candidate
ballot access as a whole.
II. Legal Standard.
A party seeking summary judgment “bears the
initial responsibility of informing the district court of
the basis for its motion, and identifying those portions
of [the record] which it believes demonstrate the
absence of a genuine issue of material fact.” Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). Summary
judgment is appropriate if the evidence, viewed in the
light most favorable to the nonmoving party, shows
“that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). Summary judgment is
also appropriate against a party who “fails to make a
showing sufficient to establish the existence of an
element essential to that party’s case, and on which
that party will bear the burden of proof at trial.”
Celotex, 477 U.S. at 322.

App. 40
III. Motion to Strike.
The Secretary filed a motion to strike certain
portions of Plaintiffs’ motion for summary judgment
and related statement of facts, contending that
Plaintiffs failed to disclose witnesses whose
declarations were submitted with the motion.
Additionally, the Secretary argues that Plaintiffs rely
on impermissible hearsay.2
A. Undisclosed Declarants.
Federal Rule of Civil Procedure 26 requires parties
to disclose “the name and, if known, the address and
telephone number of each individual likely to have
discoverable information – along with the subjects of
that information – that the disclosing party may use to
support its claims or defenses, unless the use would be
solely for impeachment[.]” Fed. R. Civ. P. 26(a)(1)(A)(i).
If a party makes an inadequate disclosure, it must
supplement or correct the disclosure in a timely
manner. Fed. R. Civ. P. 26(e)(1)(A). If a party fails to
provide information required by Rule 26(a) or (e), “the
party is not allowed to use that information or witness
to supply evidence on a motion, at a hearing, or at a
trial, unless the failure was substantially justified or is
harmless.” Fed. R. Civ. P. 37(c)(1).
Plaintiffs’ motion for summary judgment relies on
declarations from six persons that the Secretary

2

The Court denied the motion to strike and ordered the Secretary
to address the permissibility of Plaintiffs’ evidence in her summary
judgment briefing. Doc. 68. The Secretary renewed the motion in
her cross-motion for summary judgment. Doc. 69 at 24.

App. 41
contends were never disclosed under Rule 26(a). Doc.
66 at 9; Doc. 71 at 4. Plaintiffs do not contend that they
disclosed these individuals under Rule 26(a), but argue
that they were disclosed by alternative means. Doc. 71
at 4. First, Plaintiffs argue that the Secretary
identified in her own initial disclosures the following
persons as likely to have discoverable information:
“Any individual that gathered signatures to run as a
Libertarian candidate in the 2016 election cycle,” and
“Any individual running as a write-in candidate in the
Libertarian Party in the 2016 election cycle.” Id. The
six declarants fall within these descriptions. On March
2, 2017, Plaintiffs responded to the Secretary’s
Interrogatory No. 1 by stating that they would provide
a list of candidates who had advised AZLP of their
intention to run. Id. Plaintiffs provided this list on
March 9, including contact information for the
candidates. Id. On March 17, 2017, the deadline for
completion of fact discovery, the Secretary asked
Plaintiffs whether they had produced the list of
candidates, and Plaintiffs confirmed that they had and
resent a direct link to the list.3 Id. While Plaintiffs
contend that this course of events shows that the
Secretary knew of the individuals who submitted
declarations in support of Plaintiffs’ motion for
summary judgment, it is insufficient to satisfy Rule
26(a) disclosure requirements for several reasons.

3

The deadline for completing fact discovery was extended to March
17, 2017 in an order dated January 13, 2017. Doc. 56 at 2. All
depositions were required to commence at least five working days
before the deadline. Id.

App. 42
Rule 26(a) requires a party to identify “each
individual” it “may use to support its claims or
defenses.” Fed. R. Civ. P. 26(a)(1)(A)(i); see also Ollier
v. Sweetwater Union High Sch. Dist., 768 F.3d 843, 863
(9th Cir. 2014); Robert Kubicek Architects & Assocs.,
Inc. v. Bosley, No. CV-11-01945-PHX-JAT, 2013 WL
998222, at *1 (D. Ariz. Mar. 13, 2013). The disclosure
must include the name of the individual, the
individual’s address and phone number, and the
subject of the information in the individual’s
possession. Fed. R. Civ. P. 26(a)(1)(A)(i). The obvious
purpose of the rule is to enable the opposing party to
prepare to deal with the individual’s evidence in the
case. See Ollier, 768 F.3d at 862-63 (“After disclosures
of witnesses are made, a party can conduct discovery of
what those witnesses would say on relevant issues,
which in turn informs the party’s judgment about
which witnesses it may want to call at trial, either to
controvert testimony or to put it in context.”).
Plaintiffs argue that because the Secretary
identified a broad class of individuals as having
relevant information (those who attempted to run for
office as AZLP candidates in 2016), and requested that
Plaintiffs identify those individuals, Rule 26(a) was
satisfied. But the purpose of Rule 26(a)’s initial
disclosure requirement is not merely to apprise the
opposing party of the existence of individuals with
relevant information, it is to tell the opposing party
which individuals the disclosing party “may use to
support its claims or defenses.” Fed. R. Civ. P.
26(a)(1)(A)(i). The fact that a party has identified
individuals as having relevant information does

App. 43
nothing to inform that party of whether the opposing
party may use the individuals as witnesses in the case.
The list Plaintiffs provided included the names of 27
people, their phone numbers and email addresses. Doc.
67-1 at 23-26. Plaintiffs did not disclose the nature of
any relevant information these individuals might have,
or whether Plaintiffs were considering using them as
witnesses in this case. The Secretary received the list,
apparently with other discovery documents, less than
two weeks before the discovery deadline and with only
a few days to schedule depositions.
Because the Secretary was not told that Plaintiffs
may use the six declarants to support their claims, and
the declarants were not identified until it was too late
to depose them, the Court concludes that Plaintiffs
failed to satisfy their initial or supplementary
disclosure obligations under Rule 26(a) and (e). See L-3
Commc’ns Corp. v. Jaxon Eng’g & Maint., Inc., 125 F.
Supp. 3d 1155, 1169 (D. Colo. 2015) (“a party’s
collateral disclosure of information . . . must [be] in
such a form and of such specificity as to be the
functional equivalent of a supplemental discovery
response; merely pointing to places in the discovery
where the information was mentioned in passing is not
sufficient”); see also Wallace v. U.S.A.A. Life Gen.
Agency, Inc., 862 F. Supp. 2d 1062, 1067 (D. Nev. 2012)
(finding a party’s identification of an individual in
response to the opposing party’s interrogatories
insufficient to satisfy the disclosure requirements of
Rule 26(a) because, among other reasons, the party did
not identify the individual as someone with information
that the party may use in establishing its case).

App. 44
Plaintiffs also argue that the Secretary misstates
the duty imposed by Rule 26(a) when she contends that
Plaintiffs were required to identify which “candidates
the Plaintiffs intended to call as witnesses.” Doc. 71 at
6 (quoting Doc. 66 at 7). As Plaintiff notes, a party
must identify trial witnesses only thirty days before
trial unless otherwise ordered by the court. Fed. R. Civ.
P. 26(a)(3)(B). But this is an additional disclosure
requirement. It does not affect the party’s separate
obligation to identify in its initial disclosures all
individuals with relevant information whom the party
“may use to support its claims or defenses.” Fed. R. Civ.
P. 26(a)(1)(A)(i). As the commentary to the Federal
Rules makes clear, “‘[u]se’ includes any use at a
pretrial conference, to support a motion, or at trial.”
Steven S. Gensler, Federal Rules of Civil Procedure,
Rules and Commentary Rule 26 (Feb. 2017).
To avoid preclusion, Plaintiffs have the burden of
showing that their failure to disclose the six declarants
was substantially justified or harmless. Fed. R. Civ. P.
37(c)(1); R & R Sails, Inc. v. Ins. Co. of Pennsylvania,
673 F.3d 1240, 1246 (9th Cir. 2012). Plaintiffs provide
no explanation for their failure to include the
declarants in their initial or supplemental Rule 26(a)
disclosures, and therefore have not shown that it was
substantially justified. Because Plaintiffs’ failure to
disclose the six declarants impeded the ability of the
Secretary to depose those declarants and obtain
additional evidence to counter their declarations, the
Court concludes that it was not harmless. See Ollier,

App. 45
768 F.3d at 863. The Court accordingly will grant the
Secretary’s motion to strike.4
B. Hearsay.
The Secretary also asks the Court to strike evidence
provided by Plaintiff Kielsky regarding the efforts of
another individual to obtain ballot access, contending
that this evidence is inadmissible hearsay. Doc. 66 at
10. Plaintiffs’ motion for summary judgment cites to
Kielsky’s third declaration for the proposition that
“only one candidate qualified to appear on AZLP’s
primary ballot in 2016, and he did so only by working
on his petition drive full-time for approximately 70
days.” Doc. 63 at 12 (citing Doc. 18 at 22, Third Kielsky
Dec., ¶ 6). These statements were made with respect to
candidate Gregory Kelly. Id. The Secretary contends
that the only way Kielsky could know that Kelly
worked full-time for a specific number of days is if he
was told this information, as it is impossible for him to
have this information through personal observation of
the candidate. Doc. 66 at 10.

4

Rule 37(c)(1) sanctions are generally mandatory if a party
violates its duty to disclose or supplement. The Ninth Circuit has
held, however, that when application of Rule 37(c)(1) sanctions will
“amount[] to dismissal of a claim, the district court [i]s required to
consider whether the claimed noncompliance involved willfulness,
fault, or bad faith.” R & R Sails, 673 F.3d at 1247. The Court’s
exclusion of the six declarations does not amount to dismissal of
Plaintiffs’ claim. As the Court explains below, the grant of the
Secretary’s motion for summary judgment is not based on the
absence of these witnesses, and their presence would not result in
a different outcome.

App. 46
Plaintiffs do not argue that Kielsky’s statement is
offered for something other than the truth of the
matter asserted, or that Kielsky acquired this
information from first-hand observation. Plaintiffs
assert that he obtained this information through
contemporaneous reports “submitted directly to
Plaintiff Kielsky in his capacity as Chair of AZLP,
which have been submitted into the record.” Id. They
argue that Kielsky “is competent to testify to all
matters relating to” his position as Chair of AZLP. Doc.
71 at 7 n.2.
Competency is not the question. The Secretary’s
objection is based on hearsay, and Plaintiffs provide no
basis for finding that Kielsky’s statements regarding
Mr. Kelly’s signature-collection efforts are not hearsay
or fall within a hearsay exception. Plaintiffs assert that
the record upon which Kielsky relied has been placed
in the record, and cite to the Second Declaration of
Michael Kielsky (id.), but the second declaration
merely attaches an email from Mr. Kelly stating that
he has devoted 45 days (not 70 days) to “getting on the
ballot” (Doc. 10 at 26). Nothing about the email
suggests a solution to the hearsay problem. It clearly is
an out-of-court statement offered for the truth of the
matter asserted, and Plaintiffs identify no rule that
would permit its admission at trial or in support of
their summary judgment motion.5

5

The email from Mr. Kelly is address to AZLP (Doc. 10 at 26), but
Plaintiffs provide no evidence or argument that the email would be
admissible as a business record of AZLP under Rule 803(6).

App. 47
The Secretary also asks the Court to strike a
statement first contained in Plaintiffs’ reply brief. Doc.
73 at 6. Plaintiffs quote a letter from a supporter sent
to Kielsky, stating that the supporter “couldn’t interest
any independents (other than family) to sign” his
nomination petitions. Doc. 71 at 18 (quoting Doc. 10 at
28). This too is hearsay, and Plaintiffs have identified
no basis on which it is admissible.
IV. Constitutional Analysis.
Plaintiffs argue that A.R.S. §§ 16-321 and 16-322
violate the First and Fourteenth Amendments. Doc. 42.
Specifically, Plaintiffs contend that the provisions place
an impermissible burden on them under the Supreme
Court’s ballot access jurisprudence and in violation of
their rights to freedom of speech, petition, assembly,
and association for political purposes. Doc. 42 at 21-22,
¶ 59 (Count I); Doc. 63 at 4. Plaintiffs also argue that
the provisions violate their rights to freedom of
association and equal protection of the laws. Doc. 42 at
22-25 (Counts II and IV); Doc. 63 at 4, 13-16.6

6

In Count III, Plaintiffs allege a separate violation of their right
to form a political party under the First and Fourteenth
Amendments. Doc. 42 at 22-23. While they present a separate
argument section concerning this right in their briefing (Doc. 71 at
19-20), they do not identify a separate test to be applied in
determining if this right has been violated. Courts have identified
the First and Fourteenth Amendment rights of voters and
candidates implicated by ballot access restrictions, and tend to
analyze them together using one test. See Anderson v. Celebrezze,
460 U.S. 780, 786 & n.7 (1983). As a result, the Court will consider
Count III together with Count I, applying the test outlined below.

App. 48
“States have a major role to play in structuring and
monitoring the election process,” but this power is not
without limits. California Democratic Party v. Jones,
530 U.S. 567, 572 (2000). “Restrictions upon the access
of political parties to the ballot impinge upon the rights
of individuals to associate for political purposes, as well
as the rights of qualified voters to cast their votes
effectively, and may not survive scrutiny under the
First and Fourteenth Amendments.” Munro v. Socialist
Workers Party, 479 U.S. 189, 193 (1986). “A court
considering a challenge to a state election law must
weigh the character and magnitude of the asserted
injury to the rights protected by the First and
Fourteenth Amendments that the plaintiff seeks to
vindicate against the precise interests put forward by
the State as justifications for the burden imposed by its
rule, taking into consideration the extent to which
those interests make it necessary to burden the
plaintiff’s rights.” Burdick v. Takushi, 504 U.S. 428,
434 (1992) (quotation marks and citation omitted);
accord. Nader v. Brewer, 531 F.3d 1028, 1034 (9th Cir.
2008).
Thus, the validity of a state election law is
determined by applying a “balancing and means-ends
fit analysis.” Pub. Integrity All., Inc. v. City of Tucson,
836 F.3d 1019, 1024 (9th Cir. 2016). If the First and
Fourteenth Amendment rights “are subjected to
‘severe’ restrictions, the regulation must be ‘narrowly
drawn to advance a state interest of compelling
importance.’ But when a state election law provision
imposes only ‘reasonable, nondiscriminatory
restrictions’ upon the First and Fourteenth
Amendment rights of voters, ‘the State’s important

App. 49
regulatory interests are generally sufficient to justify’
the restrictions.” Burdick, 504 U.S. at 434 (quoting
Norman v. Reed, 502 U.S. 279, 289 (1992)). There is no
litmus-paper test for separating valid and invalid
election restrictions. Courts must make hard
judgments based on the facts and circumstances of
each case. Storer v. Brown, 415 U.S. 724, 730 (1974). In
this case, the Court must balance Arizona’s interest in
ensuring a modicum of support for general election
candidates against the burden imposed on Plaintiffs’
First and Fourteenth Amendment rights by A.R.S.
§§ 16-321 and 16-322.
A. The Burden on Plaintiffs.
1. Relevant Supreme Court Cases.
The Supreme Court has on several occasions
addressed the constitutionality of state limitations on
the ability of candidates to appear on the ballot. In
Williams v. Rhodes, 393 U.S. 23 (1968), the Supreme
Court addressed a series of election laws in Ohio that
required members of new political parties who wished
to appear on the presidential ballot to submit petitions
signed by 15% of the number of voters in the last
gubernatorial election and to satisfy other procedural
hurdles. Id. at 24-25. The Supreme Court found that
Ohio’s “restrictive provisions [made] it virtually
impossible for any party to qualify on the ballot except
the Republican and Democratic Parties” (id. at 25), and
held that the Ohio laws violated the Equal Protection
Clause of the Fourteenth Amendment (id. at 34).
In Jenness v. Fortson, 403 U.S. 431 (1971), the
Supreme Court addressed a Georgia law that permitted

App. 50
a candidate who failed to enter or win his party’s
primary election to have his name placed on the
general election ballot if he obtained signatures from
5% of the voters eligible to vote in the last general
election. Id. at 432. The Court found that the 5%
requirement, although higher than most states, was
“balanced by the fact that Georgia [had] imposed no
arbitrary restrictions whatever upon the eligibility of
any registered voter to sign as many nominating
petitions as he wishes.” Id. at 442. The Court upheld
the 5% requirement. Id.
In Storer, the Supreme Court examined a California
law that required independent candidates who wished
to appear on the general election ballot to obtain
signatures of between 5% and 6% of the entire vote cast
in the preceding general election in the area where the
candidate sought office. 415 U.S. at 726-27. The
candidate’s petition could not, however, be signed by
voters who had voted in the preceding primary election
(id. at 739), and all signatures had to be obtained
during a 24-day period following the primary (id. at
727). Because the pool of qualified signers was reduced
by excluding primary election voters – a reduction
which would have the effect of requiring a candidate to
obtain signatures from more than 5% or 6% of the
available signers – the Supreme Court remanded the
case to determine the precise extent of the burden. Id.
at 740, 746.
In American Party of Texas v. White, 415 U.S. 767
(1974), the Supreme Court considered a series of Texas
laws that provided four methods for placing candidates
on the general election ballot. Id. at 772. Of particular

App. 51
relevance here, minor political parties were allowed to
nominate candidates through party conventions. Id. at
777. But to have these nominees appear on the general
ballot, the parties were required to demonstrate
support in the form of convention participants
numbering at least 1% of the total votes cast for
governor at the last general election. Id. If the required
number of individuals did not participate in the
nominating convention, the party could secure its
candidate’s position on the general ballot by circulating
petitions for signature. Id. The party was required to
obtain signatures from persons equaling 1% of the total
votes in the last gubernatorial election, but a voter who
had already participated in any other party’s primary
election or nominating process was ineligible to
participate in a second nominating convention or sign
a petition. Id. at 778. Additionally each signer had to
give a notarized oath that she had not participated in
any other party’s nominating or qualification
proceeding. Id. The Court upheld this scheme, finding,
as a whole, that it “afford[ed] minority political parties
a real and essentially equal opportunity for ballot
qualification.” Id. at 788.
In Munro v. Socialist Workers Party, 479 U.S. 189
(1986), the Supreme Court addressed the validity of a
Washington law which required that a minority-party
candidate for an office receive at least 1% of all votes
cast for that office in the State’s blanket primary
election before she would be included on the general
election ballot. Id. at 190. Because Washington used a
blanket primary, registered voters could vote for any
candidate regardless of the candidate’s party
affiliation. Id. at 192. The Court noted that “States may

App. 52
condition access to the general election ballot by a
minor-party or independent candidate upon a showing
of a modicum of support among the potential voters for
the office.” Id. at 194. Emphasizing that there is no
“litmus-paper test” for deciding when a ballot
restriction violates First and Fourteenth Amendment
rights, the Court held that the Washington
requirement was valid. Id. at 195, 199.7

7

The Ninth Circuit considered the constitutionality of ballot access
restrictions in Lightfoot v. Eu, 964 F.2d 865, 869 (9th Cir. 1992), as
amended (July 6, 1992). Lightfoot considered a challenge to a
California law which provided that write-in candidates could
qualify for the general election ballot by receiving votes in the
primary “equal in number to 1 percent of all votes cast for the
office at the last preceding general election.” Id. at 866. As here,
AZLP had chosen to hold a closed primary. Id. at 870. The Ninth
Circuit upheld the requirement, finding it “not significant that it
was impossible for any Libertarian write-in candidate to meet the
1% threshold in the 1988 primary.” Id. at 870. It noted that “the
small number of voters eligible to vote in the Libertarian primary
is not an impediment created by the State of California[,]” and that
the party could choose to open its primary to non-party members
or increase its membership to reduce its burden. Id. As the Court
noted in its previous order, Lightfoot is not controlling because the
Ninth Circuit based its ruling at least in part on the fact that
California law included an alternative path that provided “easy
access to the primary ballot” – a minor party candidate could
simply gather 40 to 65 signatures. Id. at 870-72. While Arizona law
provides an alternate route of signature gathering to appear on the
primary ballot, Arizona’s signature requirements are significantly
higher than those imposed by the California law. Thus, the Court
must still consider the Arizona scheme as a whole to determine
whether it provides reasonable access to the ballot.

App. 53
2. The Burden Imposed by the Arizona
Statutes.
Plaintiffs contend that no federal court has upheld
a statute requiring support from more than 5% of
eligible voters, and that A.R.S. §§ 16-321 and 16-322
require AZLP candidates to secure support from up to
30% of eligible voters in AZLP’s closed primary. Doc. 71
at 7. In making this argument, Plaintiffs compare the
number of signatures or write-in votes required by the
statutes to the number of voters eligible to vote in
AZLP’s closed primary. Doc. 63 at 5. Using this
denominator, Plaintiffs assert that they are required to
collect signatures or write-in votes of between 11% and
30% of eligible voters for the primary.
The Court’s previous order questioned whether this
was the correct math – whether the required number
of petition signatures or write-in votes should be
divided by the number of voters who can participate in
the AZLP closed primary or by the number of qualified
signers under the statute. Doc. 34 at 8-10. The two
approaches produce very different results. Dividing by
the number of qualified signers results in the
percentages identified in the statutes – between 0.25%
and 0.50% for most offices. Doc. 70 at 1, ¶ 2; Doc. 72-2
at 1, ¶ 2. This is well within the 5% limit upheld by the
Supreme Court. Dividing by the number of AZLP
registered voters allowed to participate in the closed
primary produces the much larger percentages
emphasized by Plaintiffs – up to 30% for some offices.
Doc. 34 at 10.
Plaintiffs advance several arguments in support of
their math. The Court will address these arguments in

App. 54
the next section of this order, but first will look at the
actual numbers involved in this case.
Plaintiffs agreed during oral argument that Arizona
could, consistent with Jenness and other Supreme
Court cases, require candidates to obtain signatures
from 5% of the voters eligible to vote in the last general
election, provided it did not erect other obstacles to
their participation. See Jenness, 403 U.S. at 442.
During the 2016 general election, there were 3,588,466
registered voters in Arizona. See Arizona Secretary of
State, Voter Registration & Historical Election Data,
https://www.azsos.gov/elections/voter-registrationhistorical-election-data (last visited July 3, 2017).
Thus, Arizona lawfully could require an AZLP
candidate to obtain 179,423 signatures – 5% of the total
number of registered voters – to appear on the general
election ballot for a statewide office.
Instead, Arizona has adopted a two-step process.
First, AZLP has qualified as a party entitled to
continuing representation on the general election ballot
by having a membership equal to at least two-thirds of
one percent of all registered voters in the State (at least
23,684 members in 2016). A.R.S. § 16-804(B). Second,
as members of such a qualified party, AZLP candidates
for general state offices must obtain petition signatures
or write-in votes equal to 0.25% of qualified signers
under the statute, which in 2016 amounted to 3,034.
Doc. 42-2 at 3.
The contrast between what is constitutionally
permissible (179,423 petition signatures) and what
Arizona requires (party membership of less than one
percent of registered voters and petition signatures or

App. 55
write-in votes totaling 3,034) is striking. Looking only
at these numbers, and recognizing that Plaintiffs make
other arguments that must be addressed below, it is
difficult to conclude that Arizona’s requirement is
unconstitutionally burdensome. Statements in various
Supreme Court cases seem to confirm this initial
impression. In Storer, the Court observed:
Standing alone, gathering 325,000 signatures in
24 days would not appear to be an impossible
burden. Signatures at the rate of 13,542 per day
would be required, but 1,000 canvassers could
perform the task if each gathered 14 signers a
day. On its face, the statute would not appear to
require an impractical undertaking for one who
desires to be a candidate for President.
415 U.S. at 740. In American Party, the Supreme Court
noted that collecting 22,000 signatures in 55 days “does
not appear to be either impossible or impractical, and
we are unwilling to assume that the requirement
imposes a substantially greater hardship on minority
party access to the ballot.” 415 U.S. at 783, 786.
Comparison to other Arizona parties and candidates
is also informative. Independent candidates may
appear on the Arizona general election ballot only if
they obtain signatures from 3% of voters registered to
vote in the relevant jurisdiction and who are not
affiliated with a party qualified for representation on
the next general election ballot. A.R.S. § 16-341 (E), (F).
In 2016, this required 37,077 signatures to appear on
the general election ballot for statewide office, more
than ten times the number required from AZLP
candidates. See Arizona Secretary of State, Voter

App. 56
Registration & Historical Election Data, https://www
.azsos.gov/elections/voter-registration-historicalelection-data (last visited July 3, 2017) (reporting
1,235,911 registered voters in Arizona in 2016 who
were not members of the Democratic, Green, AZLP, or
Republican parties).
Candidates from the major parties also have higher
burdens than AZLP candidates. Republican candidates
for statewide office must secure 5,801 petition
signatures or write-in votes to make the general ballot,
and Democratic candidates must secure 5,352. Doc. 422 at 3; Doc. 70 at 3, ¶ 10. The requirement for Green
Party candidates is lower – 806 signatures or write-in
votes – but the Green Party faces a hurdle AZLP does
not. Id. Because the Green Party does not have enough
members to qualify for continuing representation on
the general ballot, the Green Party must secure at least
25,000 petition signatures every four years, a
requirement not imposed on AZLP, Republicans, or
Democrats. A.R.S. § 16-803; Doc. 42-4 at 2, ¶ 3; Doc. 70
at 7, ¶ 38.
Thus, when actual numbers are considered, the
ballot-qualification requirements for AZLP candidates
are well below constitutionally permissible
requirements and lower than those imposed on other
candidates in Arizona.
3. Plaintiffs’ Arguments.
As noted, Plaintiffs argue that the Arizona laws are
unconstitutional because they require signatures or
write-in votes from more than 5% of voters when the
percentage is calculated on the basis of persons

App. 57
permitted to vote in their closed primary. Plaintiffs
make several arguments in support of this math. The
Court does not find them persuasive.8
a. Ballot Qualification of AZLP.
Plaintiffs argue that Arizona has already
determined that AZLP has the requisite modicum of
support to qualify for continued representation on the
ballot, and that no additional requirements are needed
to further the State’s interest. Doc. 63 at 5. As
Plaintiffs acknowledge, however, support for a party is
distinct from support for a candidate. Id. at 5-6. Cases
recognize that states have a legitimate interest in
ensuring that candidates – not just parties – have a
significant modicum of support before their names
appear on general ballots. See Anderson, 460 U.S. at
788 n.9 (“The State has the undoubted right to require
candidates to make a preliminary showing of

8

Plaintiffs make some separate arguments with respect to
Arizona’s write-in requirements for ballot access. To the extent
Plaintiffs argue that write-in requirements are too stringent
because they can be satisfied only through votes in the limited
primary election, the Court notes that states are not required to
provide a write-in method for qualifying for a general election
ballot. Burdick, 504 U.S. at 441 (“when a State’s ballot access laws
pass constitutional muster as imposing only reasonable burdens on
First and Fourteenth Amendment rights . . . a prohibition on
write-in voting will be presumptively valid.”). If a state’s ballotqualification scheme can pass constitutional muster by providing
no write-in method for qualifying, it certainly can pass
constitutional muster by providing a restricted write-in method, so
long as its other ballot-access methods are reasonable. Because the
Court finds Arizona’s signature method reasonable, it need not
address Plaintiffs’ separate write-in arguments.

App. 58
substantial support in order to qualify for a place on
the ballot, because it is both wasteful and confusing to
encumber the ballot with the names of frivolous
candidates.”) (emphasis added); Am. Party, 415 U.S. at
789 (“requiring independent candidates to evidence a
‘significant modicum of support’ is not
unconstitutional”) (quoting Jenness, 403 U.S. at 442)
(emphasis added, footnote omitted). Indeed, state
restrictions upheld by the Supreme Court focus on
individual candidates, requiring them to obtain a
specified number of petition signatures to appear on a
general ballot. See, e.g., Storer, 415 U.S. at 727.
No stretch of the imagination is needed to conclude
that a candidate could run for office without significant
support, despite the existence of general support for
her party. If a candidate was not required to show any
threshold of support through votes or petition
signatures, she could win her primary and reach the
general ballot with no significant modicum of support
at all. This is especially true where, as here,
“Libertarian candidates typically run unopposed in the
AZLP primary[.]” Doc. 71 at 15. An unopposed
candidate could win a spot on the general election
ballot with only one vote in such a primary.
Plaintiffs appear to concede that the State has an
independent interest in requiring an individual
candidate to show that she enjoys sufficient support to
be included on the ballot. Plaintiffs argue, however,
that primary elections are inherently unsuitable for
measuring voter support for minor party candidates.
Doc. 63 at 7. They emphasize that AZLP candidates
generally receive large numbers of votes in general

App. 59
elections but few votes in primary elections, and thus
primary vote totals do not show whether they enjoy
support “among the general electorate.” Id.
But Plaintiffs are not limited to showing support by
obtaining votes in the primary election. AZLP
candidates may obtain the designated number of
signatures from qualified signers before the primary,
win the primary with fewer votes, and still be placed on
the general election ballot. If Plaintiffs are concerned
that the true level of their support is more accurately
reflected by results in the general election, rather than
results in their smaller closed primary, then A.R.S.
§§ 16-321 and 16-322 take a step in that direction by
permitting AZLP to obtain signatures not only from
registered AZLP voters, but also from registered
independents and unaffiliated voters – a pool totaling
more than one million voters in Arizona. Doc. 70 at 3,
¶ 16; Doc. 72-2 at 4, ¶ 16.
What is more, nothing in the Arizona statutes
suggests that the State views a party’s qualification for
ballot access as sufficient for individual candidate
qualification. To the contrary, parties who meet the
requirements for representation on the ballot qualify,
under the language of the statute, only to have a
“column” on the general election ballot. A.R.S. § 16801(A). They do not qualify to have candidates on the
ballot. Id. Candidates must meet the additional
support requirements through petition signatures or
write-in votes. A.R.S §§ 16-321, 16-322. This structure
shows that Arizona does not view a party’s
qualification as tantamount to candidate qualification.

App. 60
b. Supreme Court
“Eligible Voters.”

References

to

Plaintiffs argue that “[e]very Supreme Court and
lower federal court decision analyzing the
constitutionality of ballot access laws cited by the
parties in the proceedings thus far measures the
modicum of support that such a law requires as a
percentage of eligible voters.” Doc. 63 at 6. True, but
this does not mean that the phrase “eligible voters” can
be lifted from the cases and applied to the AZLP closed
primary. None of the Supreme Court cases addressed
a closed primary; each addressed qualification
requirements for general election ballots. See Williams,
393 U.S. 23; Jenness, 403 U.S. 431; Storer, 415 U.S.
724; Am. Party, 415 U.S. 767; Munro, 479 U.S. 189.
This distinction is significant. The Supreme Court
has held that states may require candidates to show
support from up to 5% of the general electorate. See,
e.g., Jenness, 403 U.S. 431. Arizona requires a showing
of support from between 0.25 and 0.50% of qualified
signers – a group smaller than the general electorate –
and therefore requires an even lower percentage of the
general electorate. This is best illustrated with actual
numbers. In 2016, Arizona had 3,588,466 registered
voters. Arizona Secretary of State, Voter Registration
& Historical Election Data, https://www.azsos.gov/
elections /voter-registration-historical-election-data
(last visited July 3, 2017). For AZLP candidates for
statewide office, there were 1,188,771 qualified signers.
Doc. 69 at 7; Doc. 70 at 3, ¶¶ 16, 17; Doc. 72-2 at 4,
¶¶ 16, 17. 0.50% of these qualified signers – which
totals 5,944 voters – would be 0.16% of the total

App. 61
registered voters. 0.25% would be 2,972 voters, equal to
0.08% of total registered voters. Thus, Arizona
effectively requires AZLP candidates to obtain
signatures from less than 0.20% of registered voters,
well below the 5% upheld by the Supreme Court.
While the Supreme Court has upheld state laws
requiring candidates to obtain signatures from up to
5% of the general electorate, additional state law
restrictions on who may sign candidate petitions may
increase the burden on candidates and thus affect the
constitutionality of the state laws in question. In
Storer, the Supreme Court considered a law that
limited those eligible to sign a nomination petition for
an independent candidate to registered voters who had
not participated in the primary election. 415 U.S. at
739. The Court noted that this limitation could
substantially reduce the pool of eligible signers and
thus increase the candidate’s burden to obtain
signatures to an amount exceeding 5% of eligible
signers. Id. at 739. Noting that this “would be in
excess, percentagewise, of anything the Court ha[d]
approved to date,” the Court remanded the case to
determine the precise extent of the burden. Id. at 739,
746. A similar problem does not exist here. Arizona has
limited those who may sign a nominee petition to
“qualified signers,” but this is a substantial pool that
included 1,188,771 potential signers in 2016. Doc. 69 at
7; Doc. 70 at 3, ¶¶ 16, 17; Doc. 72-2 at 4, ¶¶ 16, 17.
Arizona requires that AZLP candidates obtain
signatures from 0.50% or less of this pool.

App. 62
c. Other Responses to Plaintiffs’ Math.
Plaintiffs’ use of closed-primary voters as the
denominator in its percentage calculations is flawed for
several additional reasons, some of which are related to
the discussion above.
First, in Munro, the Supreme Court noted that “it is
now clear that States may condition access to the
general election ballot by a minor-party or independent
candidate upon a showing of a modicum of support
among the potential voters for the office.” 479 U.S. at
193 (emphasis added). The potential voters for the
office are those who will vote in the general election.
Measuring support for a candidate only within his own
party, as Plaintiffs do by focusing on their closed
primary, does not show the support a candidate enjoys
among voters for her office in the general election.
Plaintiffs identify no case where the required modicum
of support was measured in such a way.
Second, although Arizona requires parties to hold
primaries, and specifies the number of petition
signatures required to appear on the primary ballot, it
requires this as part of a process for appearing on the
general election ballot – the ultimate object of the
Arizona legislation. As noted above, a person who
obtains the required number of signatures for the
AZLP primary can qualify for the general election
ballot even if she receives fewer votes in the primary
than the number of petition signatures she obtained.
She simply must win the primary, even with only a
single vote. Thus, the modicum of support is shown by
the petition signatures (or in the number of write-in
votes if the candidate chooses that path). The Supreme

App. 63
Court has recognized that states may use primaries as
the method for establishing a sufficient modicum of
support to appear on a general election ballot. Munro,
479 U.S. at 196 (“The primary election . . . functions to
winnow out and finally reject all but the chosen
candidates. We think that the State can properly
reserve the general election ballot for major struggles
. . . by conditioning access to that ballot on a showing of
a modicum of voter support.”) (quotation marks and
citations omitted); id. at 197-98 (“To be sure,
candidates must demonstrate, through their ability to
secure votes at the primary election, that they enjoy a
modicum of community support in order to advance to
the general election. But requiring candidates to
demonstrate such support is precisely what we have
held States are permitted to do.”). Because the ultimate
effect of the Arizona legislation is to determine who
appears on the general election ballot, the Arizona
percentage requirements should be compared to the
general electorate, consistent with the Supreme Court
cases discussed above. As shown above, the percentage
of general election voters from whom AZLP candidates
must obtain signatures is well below 5%.
Third, if the percentage of closed-primary voters is
relevant at all, AZLP candidates are not helpless to
affect it. While some candidates may have been
required to obtain signatures or primary votes from
30% of registered AZLP voters this year, they could
reduce this percentage in subsequent years by
attracting more voters to AZLP. The facts suggest that
increasing AZLP membership is feasible. As the
Secretary notes, membership increased from 24,394 in
2016 to 31,886 by April 1, 2017. Doc. 70 at 3, 6 ¶¶ 17,

App. 64
34; Doc. 72-2 at 4, 6-7 ¶¶ 17, 34. A party may not use
its low membership to reduce the support it must show
for presence on the general ballot. States are not
required to grant an advantage to less popular
candidates to ensure they appear on the general
election ballot. See Munro, 479 U.S. at 198. States only
need ensure that the requirements of support for the
office are reasonable and do not freeze the political
status quo, but offer a real opportunity for minority
and independent candidates to qualify for the ballot.
Am. Party, 415 U.S. at 787.
In summary, the Court concludes that the Arizona
legislation should be analyzed by looking to the
percentage of qualified signers or the general
electorate, not by focusing solely on the number of
voters in AZLP’s closed primary. When so tested,
Arizona’s requirement falls well below the 5%
requirement upheld in Supreme Court cases.
4. 2016 Election Results.
There is no dispute that the Arizona statutes
increased the number of signatures AZLP candidates
must obtain. For the 2016 election, AZLP candidates
for state legislative positions were required to obtain
signatures or write-in votes from between 144 and 273
qualified signers, depending on the size of their district.
Doc. 70 at 2, ¶ 4; Doc. 72-2 at 2, ¶ 4. Prior to H.B. 2608,
these candidates had signature requirements as low as
7 signatures. Similarly, an AZLP candidate for
Congress was required to obtain between 529 and 785
signatures or write-in votes in 2016, but previously
needed only between 24 and 43 signatures to qualify
for the ballot. Doc. 70 at 2, ¶¶ 7, 8; Doc. 72-2 at 2, ¶¶ 7,

App. 65
8. Candidates for statewide office, such as governor,
need signatures from 0.25% of qualified signers. Doc.
70 at 3, ¶ 10; Doc. 72-2 at 3, ¶ 10. In 2016, this
amounted to 3,034 signatures for AZLP candidates.
Doc. 70 at 3, ¶ 10; Doc. 72-2 at 3, ¶ 10. Prior to H.B.
2608, an AZLP gubernatorial candidate was required
to submit 133 valid signatures. Doc. 70 at 3, ¶ 11; Doc.
72-2 at 3, ¶ 11.
It is undisputed that only one AZLP candidate
qualified for the primary ballot in 2016 under the new
signature requirements. Doc. 64 at 3, ¶ 11; Doc. 70 at
12, ¶ 11. Plaintiffs state that none appeared on the
general election ballot. In contrast, 35 AZLP candidates
appeared on the general election ballot in 2004, 19 in
2008, and 18 in 2012. Doc. 64 at 3, ¶ 10; Doc. 70 at 11,
¶ 10.
The Supreme Court has addressed the evidentiary
value of comparing the number of minority party
candidates appearing on the ballot before and after
enactment of a challenged ballot access law. While such
comparison is relevant, it is not controlling. As the
Supreme Court explained in Munro:
Much is made of the fact that prior to 1977,
virtually every minor-party candidate who
sought general election ballot position so
qualified, while since 1977 only 1 out of 12
minor-party candidates has appeared on that
ballot. Such historical facts are relevant, but
they prove very little in this case, other than the
fact that § 29.18.110 does not provide an
insuperable barrier to minor-party ballot access.
It is hardly a surprise that minor parties

App. 66
appeared on the general election ballot before
§ 29.18.110 was revised; for, until then, there
were virtually no restrictions on access. Under
our cases, however, Washington was not
required to afford such automatic access and
would have been entitled to insist on a more
substantial showing of voter support. Comparing
the actual experience before and after 1977 tells
us nothing about how minor parties would have
fared in those earlier years had Washington
conditioned ballot access to the maximum extent
permitted by the Constitution.
479 U.S. at 196-97.
The Court finds the present case very similar to
Munro, where Washington passed a law which required
candidates to receive at least 1% of all votes cast for the
candidates’ office in the state’s open primary election
before the candidate’s name would be placed on the
general election ballot. The Ninth Circuit found the law
invalid primarily because of its practical effect on
minor party candidates. The Court of Appeals noted
that “[p]rior to 1977, candidates of minor parties
qualified for the general election ballot in contests for
statewide office with regularity,” but “[t]he 1977
amendment . . . worked a striking change.” Socialist
Workers Party v. Sec’y of State of Wash., 765 F.2d 1417,
1419 (9th Cir. 1985). “According to the affidavit of
Washington’s Supervisor of Elections, since 1977 minor
parties have not been successful at qualifying
candidates for the state general election ballot for
statewide offices. Although one or more minor parties
nominated candidates in each of the four statewide

App. 67
elections held between 1978 and 1983, none qualified
for the general election ballot.” Id. (quotation marks
omitted). Given these results, the Ninth Circuit found
that Washington’s ballot access law seriously impinged
on the plaintiffs’ protected rights and that Washington
had “failed to present an interest substantial enough to
warrant the restraint imposed on those rights.” Id. at
1422.
The Supreme Court reversed, even in the face of the
election results on which the Ninth Circuit relied. 479
U.S. at 196-97. The Supreme Court noted that its
previous cases “establish with unmistakable clarity
that States have an ‘undoubted right to require
candidates to make a preliminary showing of
substantial support in order to qualify for a place on
the ballot[.]’” Id. at 194 (quoting Anderson, 460 U.S. at
788-89). Because the Washington law imposed lower
requirements than the laws upheld in Jenness and
American Party, the Supreme Court found it
constitutional. Id. at 199.
Plaintiffs in this case make essentially the same
argument as the plaintiffs in Munro. They cite
statistics showing that it is now more difficult for their
candidates to qualify for the primary and general
election ballots. But the Supreme Court in Munro,
American Party, and Jenness upheld state ballot
qualification laws that were more burdensome than
Arizona’s. The laws in these cases required candidates
to demonstrate support of between 1% and 5% of all
registered voters, where Arizona requires only between
0.25% and 0.50% of the smaller pool of qualified signers
– and, as shown above, an even smaller percentage of

App. 68
registered voters. In light of these Supreme Court cases
and the discussion of actual election results in Munro,
the Court cannot conclude that Plaintiffs have shown
an unconstitutional burden.
5. Impact of the Scheme as a Whole.
Courts must review a state’s ballot-access scheme
as a whole. Storer, 415 U.S. at 730. The Court
accordingly will consider other restrictions in the
Arizona law.
Only two restrictions are apparent: AZLP
candidates are limited to collecting signatures from
qualified signers, and an individual who signs a
nominating petition may not sign any other nominating
petition. A.R.S. § 16-321(A), (E). These are not
significant restrictions. Candidates may obtain
signatures physically or electronically, A.R.S. §§ 16321, 16-316-318, and, unlike many states, Arizona
imposes no time limit on signature gathering as long as
the nomination petitions are filed between 120 and 90
days before the primary election, A.R.S. 16-314. Other
than complaining about the number of signatures
required, Plaintiffs do not argue that Arizona has
unduly restricted the signature gathering process.
Plaintiffs do contend that they cannot, in practice,
obtain signatures from nonparty members. They argue
that because “[n]on-members are not permitted to vote
in AZLP’s primary, [] independent and unaffiliated
voters have no incentive to support a candidate seeking
to run in such an election.” Doc. 63 at 7. As a result,
they argue, they are not able to obtain signatures from
non-party members in practice. But this assertion is

App. 69
hard to square with Plaintiffs assertion that they
regularly receive significant support in the general
election. Doc. 63 at 7. If a registered independent or
unaffiliated voter supports an AZLP candidate in the
general election, she has every incentive to sign the
candidate’s nominating petition. Plaintiffs cite
declarations to support their assertion that the closed
nature of AZLP’s primary election deters independent
and unaffiliated voters from signing their petitions.
But the cited declarations actually show that it is a
difference in philosophy between the voters and AZLP,
or a reluctance by the candidates to seek support from
these voters, that keeps AZLP candidates from
obtaining the signatures of independent voters. See,
e.g., Doc. 42-4 at 3, ¶ 7 (declaration from Kim Allen
asserting that she does not like to seek support from
independent voters and they do not generally want to
sign her petition because they are not part of the party
and “may not share [their] political philosophy and
goals”).
The parties dedicate significant briefing to the
question of whether AZLP candidates exercised
reasonable diligence when trying to secure placement
on the 2016 ballot. They reach contrary answers,
relying on declarations and expert opinions concerning
the quality of the efforts made by AZLP candidates and
what could reasonably be expected of them. Facts
relating to the ability of candidates to obtain ballot
access in practice may inform the Court’s inquiry into
the reasonableness of the burden imposed on Plaintiffs.
See Munro, 479 U.S. at 196-98; Nader, 531 F.3d at
1035. But where the Court has determined that the
quantity of signatures required for ballot access falls

App. 70
well within the 5% requirement generally upheld by
the Supreme Court, and Plaintiffs have not identified
any additional restrictions that would increase the
burden imposed on them, the Court need not engage in
a detailed and extensive factual consideration of the
hours and techniques employed by each AZLP
candidate to obtain signatures or write-in votes. While
the Supreme Court has directed lower courts to
consider whether a reasonably diligent candidate could
be expected to satisfy the signature requirements and
gain a place on the ballot, Storer, 415 U.S. at 742,
evidence that some candidates struggled to satisfy
those requirements is not, as Munro shows, sufficient
to show that the scheme imposed an unconstitutional
burden. As the Supreme Court has made clear, states
are not required to provide candidates with essentially
“automatic access” to the ballot. Munro, 479 U.S. at
197.
Plaintiffs additionally argue that AZLP candidates
must seek signatures from independent and
unaffiliated voters, a requirement that violates their
right to freedom of association. Plaintiffs rely on
California Democratic Party v. Jones, a case in which
the Supreme Court considered a California law
mandating the use of a blanket open primary to select
each party’s nominee. 530 U.S. at 570, 581-82. The
Court noted that “a corollary of the right to associate is
the right not to associate,” and “[i]n no area is the
political association’s right to exclude more important
than in the process of selecting its nominee.” Id. at 574,
575. Forcing a party to involve non-members in its
nominee selection process will inevitably change the
party’s message. Id. at 581-82. As a result, a law

App. 71
requiring parties to open their nominee selection
process to non-party members imposes a heavy burden
and is “unconstitutional unless it is narrowly tailored
to serve a compelling state interest.” Id. at 582.
The Ninth Circuit similarly considered the validity
of an Arizona provision allowing voters who were
unaffiliated, registered as independents, or registered
as members of parties that are not on the primary
ballot to vote in the primary of their choice. Arizona
Libertarian Party, Inc. v. Bayless, 351 F.3d 1277, 1280
(9th Cir. 2003). Relying on Jones, the Ninth Circuit
emphasized that forced association with nonmembers
in the nominee selection process raised a risk of
“influenc[ing] the choice of the nominee at the primary
and [] caus[ing] partisan candidates to change their
message to appeal to a more centrist voter base.” Id. at
1282. The Ninth Circuit noted that “forcing the
Libertarians to open their primary to nonmembers for
the selection of party candidates raises serious
constitutional concerns,” but ultimately determined
that resolution of these concerns was a factual issue
and remanded to the district court for further
consideration. Id. On remand, the district court found
the provision unconstitutional because it imposed a
severe burden on AZLP that was not justified by a
compelling interest. Arizona Libertarian Party v.
Brewer, No. 02-144-TUC-RCC (D. Az. Sept. 27, 2007)
(unpublished order).
Jones and Bayless are distinguishable from this
case. The law in Jones directly mandated the use of an
open primary. Similarly, the law in Bayless mandated
that nonmembers be allowed to vote in AZLP’s

App. 72
primary. Here, Arizona law requires only that AZLP
candidates obtain a certain number of signatures
before they may appear on the primary ballot. They are
not required by the law to seek those signatures from
non-AZLP voters. True, a candidate who cannot
establish a modicum of support from the ranks of her
own party may feel the need to turn to nonmembers to
supplement her support, but the law does not require
her to do so. This is a significant distinction from the
legally-mandated participation of other parties at issue
in Jones and Bayless.
Because Plaintiffs are required, at most, to obtain
signatures from 30% of registered AZLP voters in any
relevant jurisdiction, they can obtain sufficient
signatures without looking outside their party. If the
candidates or the party find this too daunting a task,
they can work to increase their party membership. The
Supreme Court has made clear that Arizona is not
required to decrease its ballot access requirements for
the benefit of less popular parties or candidates.
Munro, 479 U.S. at 198 (“States are not burdened with
a constitutional imperative to reduce voter apathy or to
‘handicap’ an unpopular candidate to increase the
likelihood that the candidate will gain access to the
general election ballot.”).
There is another significant distinction between this
case and the laws at issue in Jones and Bayless. Those
laws permitted nonmembers of a party to participate
directly in selection of the party’s candidates. In this
case, although a candidate may feel the need to seek
signatures from qualified signers who are not members
of her party, those signers will not have the right to

App. 73
vote in the AZLP closed primary. Thus, AZLP will be
free to select its nominee without involvement of
nonmembers.
Finally, the Court notes that Plaintiffs’ arguments
could lead to absurd results. Suppose a minority
political party has only five members. If Plaintiffs’
associational argument is correct, Arizona could not
require the party’s candidates, as a practical matter, to
obtain petition signatures from anyone other than
party members. And because the party would be
entitled to hold a closed primary under Jones and
Bayless, the party could place candidates on the
general election ballot with support from five or fewer
voters. Such a result would be plainly inconsistent with
Arizona’s “undoubted right to require candidates to
make a preliminary showing of substantial support in
order to qualify for a place on the ballot[.]” Anderson,
460 U.S. at 788-89.
The Court concludes that Arizona’s signature
requirements, considered as a whole, do not impose a
severe burden on Plaintiffs’ right to freedom of
association.
B. Constitutional Balancing.
In light of the discussion above, the Court concludes
that the burden imposed on Plaintiffs by A.R.S. §§ 16321 and 16-322 is reasonable. This is true when the
actual numbers are considered, and whether the
percentage requirement is calculated on the basis of
qualified signers or the general electorate. In both
instances, Arizona imposes a burden on Plaintiffs well
below the 5% requirement upheld by the Supreme

App. 74
Court. The fact that Plaintiffs placed fewer candidates
on the ballot in 2016 is relevant, but not determinative.
The total number of signatures required for AZLP
candidates is lower than the numbers required for
independent candidates and candidates from the two
major parties, and a lighter burden than imposed on
Green Party candidates when the Green Party’s fouryear petition requirement is considered. The Court
cannot conclude that Plaintiffs have shown that the
signature requirements pose an insurmountable
obstacle to ballot access. Comparing the higher burdens
placed on the other parties and independent
candidates, the Court also concludes that the Arizona
requirements are not discriminatory against Plaintiffs.9
“[W]hen a state election law provision imposes only
‘reasonable, nondiscriminatory restrictions’ upon the
First and Fourteenth Amendment rights of voters, ‘the
State’s important regulatory interests are generally
sufficient to justify’ the restrictions.” Burdick, 504 U.S.
at 434 (quoting Norman, 502 U.S. at 289). The Court
finds Arizona’s interests sufficient here. As the
9

It is well-accepted that states may impose different restrictions
on parties’ access to the ballot depending on their size and history.
See Jenness, 403 U.S. at 441-42 (“The fact is that there are obvious
differences in kind between the needs and potentials of a political
party with historically established broad support, on the one hand,
and a new or small political organization on the other. Georgia has
not been guilty of invidious discrimination in recognizing these
differences and providing different routes to the printed ballot.”);
id. at 440-41 (“We cannot see how Georgia has violated the Equal
Protection Clause of the Fourteenth Amendment by making
available these two alternative paths [to the ballot], neither of
which can be assumed to be inherently more burdensome than the
other.”).

App. 75
Supreme Court has held, “[t]here is surely an
important state interest in requiring some preliminary
showing of a significant modicum of support before
printing the name of a political organization’s
candidate on the ballot – the interest, if no other, in
avoiding confusion, deception, and even frustration of
the democratic process at the general election.”
Jenness, 403 U.S. at 442; see also Munro, 479 U.S. at
193; Am. Party, 415 U.S. at 782; Lightfoot, 964 F.2d at
871.
Plaintiffs argue that the State has failed to show
that it has a genuine interest in requiring a modicum
of support before appearance on the general election
ballot – that Arizona has not shown that it has
experienced voter confusion or fraud. Doc. 71 at 15. But
the Supreme Court has “never required a State to
make a particularized showing of the existence of voter
confusion, ballot overcrowding, or the presence of
frivolous candidacies prior to the imposition of
reasonable restrictions on ballot access.” Munro, 479
U.S. at 194. As the Supreme Court explained:
To require States to prove actual voter
confusion, ballot overcrowding, or the presence
of frivolous candidacies as a predicate to the
imposition of reasonable ballot access
restrictions would invariably lead to endless
court battles over the sufficiency of the
“evidence” marshaled by a State to prove the
predicate. Such a requirement would necessitate
that a State’s political system sustain some level
of damage before the legislature could take
corrective action. Legislatures, we think, should

App. 76
be permitted to respond to potential deficiencies
in the electoral process with foresight rather
than reactively, provided that the response is
reasonable and does not significantly impinge on
constitutionally protected rights.
Id. at 195-96.
Balancing Arizona’s legitimate interest in requiring
a significant modicum of support before appearance on
the general election ballot against the reasonable and
nondiscriminatory burdens imposed by A.R.S. §§ 16321 and 16-322, the Court concludes that the statutes
are constitutional.10
C. Freedom of
Protection.

Association

and

Equal

Plaintiffs claim in Counts II and IV that the Arizona
statutes violate their rights to freedom of association
and equal protection. Doc. 42 at 22-25; Doc. 63 at 4, 1316. Plaintiffs’ freedom of association arguments are
dealt with above. The Arizona statutes do not legally
require Plaintiffs to associate with voters outside of
their party or to include such voters in their primary
elections, as did the laws at issue in Jones and Bayless.
Plaintiffs have also failed to show an equal
protection violation. For reasons discussed above, the
Court finds the Arizona laws to be nondiscriminatory.
10

The Court notes that it would reach this conclusion even if the
evidence excluded at the beginning of this order were considered.
Comparable evidence was not sufficient to defeat the state
restrictions in Munro, and the Court concludes that it would not be
sufficient here. See 479 U.S. at 196-97.

App. 77
And even if H.B. 2608 could be viewed as having a
greater impact on AZLP than other Arizona political
parties, it would violate equal protection only if
Plaintiffs showed that it was enacted with a
discriminatory intent. Washington v. Davis, 426 U.S.
229 (1976) (disparate impact resulting from a facially
neutral law, without more, is not sufficient to establish
a violation of the Equal Protection Clause). Plaintiffs
do not attempt to make this showing.
IT IS ORDERED that Plaintiffs’ motion for
summary judgment (Doc. 63) is denied and the
Secretary’s cross-motion for summary judgment (Doc.
69) is granted. The Clerk of Court shall enter
judgment in accordance with this order and terminate
this matter.
Dated this 7th day of July, 2017.
/s/David G. Campbell
David G. Campbell
United States District Judge

App. 78
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-16-01019-PHX-DGC
[Filed July 10, 2017]
________________________________
Arizona Libertarian Party, et al., )
)
Plaintiffs,
)
)
v.
)
)
Michele Reagan,
)
)
Defendant.
)
________________________________ )
JUDGMENT IN A CIVIL CASE
Decision by Court. This action came for
consideration before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that,
pursuant to the Court’s Order filed July 10, 2017,
which granted the Motion for Summary Judgment,
judgment is entered in favor of defendant and against
plaintiffs’. Plaintiffs’ to take nothing, and the complaint
and action are dismissed.
Brian D. Karth
District Court Executive/Clerk of Court

App. 79
July 10, 2017
By

s/ D. Draper
Deputy Clerk

App. 80

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16491
D.C. No. 2:16-cv-01019-DGC
District of Arizona, Phoenix
[Filed July 11, 2019]
___________________________________
ARIZONA LIBERTARIAN PARTY;
)
MICHAEL KIELSKY,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
KATIE HOBBS, in her official
)
capacity as Secretary of State
)
of Arizona,
)
)
Defendant-Appellee.
)
___________________________________ )
ORDER
Before: WALLACE, TASHIMA, and McKEOWN,
Circuit Judges.
The panel votes to deny the petition for rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc and no judge has

App. 81
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35. The petition for panel
rehearing and the petition for rehearing en banc are
denied.

App. 82

APPENDIX D
ARIZONA STATUTORY PROVISIONS
16-321. Signing and certification of nomination
petition; definition
A. Each signer of a nomination petition shall sign only
one petition for the same office unless more than one
candidate is to be elected to such office, and in that
case not more than the number of nomination petitions
equal to the number of candidates to be elected to the
office. A signature shall not be counted on a nomination
petition unless the signature is on a sheet bearing the
form prescribed by section 16-314.
B. For the purposes of petitions filed pursuant to
sections 16-312, 16-313, 16-314 and 16-341, each signer
of a nomination petition shall be a voter who at the
time of signing is a registered voter in the electoral
district of the office the candidate is seeking.
C. If an elector signs more nomination petitions than
permitted by subsection A of this section, the earlier
signatures of the elector are deemed valid, as
determined by the date of the signature as shown on
the petitions. If the signatures by the elector are dated
on the same day, all signatures by that elector on that
day are deemed invalid. Any signature by that elector
on a nomination petition on or after the date of the last
otherwise valid signature is deemed invalid and shall
not be counted.

App. 83
D. The person before whom the signatures were
written on the signature sheet is not required to be a
resident of this state but otherwise shall be qualified to
register to vote in this state pursuant to section 16-101
and, if not a resident of this state, shall register as a
circulator with the secretary of state. A circulator shall
verify that each of the names on the petition was
signed in his presence on the date indicated, and that
in his belief each signer was a qualified elector who
resides at the address given as the signer’s residence
on the date indicated and, if for a partisan election,
that each signer is a qualified signer. The way the
name appears on the petition shall be the name used in
determining the validity of the name for any legal
purpose pursuant to the election laws of this state.
Signature and handwriting comparisons may be made.
E. A person who signs a nominating petition must use
that person’s actual residence address unless there is
no actual residence address assigned by an official
governmental entity or the person’s actual residence is
protected pursuant to section 16-153. The signature of
a person who signs a nominating petition and who uses
only a description of the place of residence or an
Arizona post office box address is valid if the person is
otherwise properly registered to vote, has not moved
since registering to vote and is eligible to sign the
nominating petition.
F. For the purposes of this article, “qualified signer”
means any of the following:
1. A qualified elector who is a registered member of the
party from which the candidate is seeking nomination.

App. 84
2. A qualified elector who is a registered member of a
political party that is not entitled to continued
representation on the ballot pursuant to section 16804.
3. A qualified elector who is registered as independent
or no party preferred.
16-322. Number of signatures required on
nomination petitions
A. Nomination petitions shall be signed by a number of
qualified signers equal to:
1. If for a candidate for the office of United States
senator or for a state office, excepting members of the
legislature and superior court judges, at least onefourth of one percent but not more than ten percent of
the total number of qualified signers in the state.
2. If for a candidate for the office of representative in
Congress, at least one-half of one percent but not more
than ten percent of the total number of qualified
signers in the district from which such representative
shall be elected except that if for a candidate for a
special election to fill a vacancy in the office of
representative in Congress, at least one-fourth of one
percent but not more than ten percent of the total
number of qualified signers in the district from which
such representative shall be elected.
3. If for a candidate for the office of member of the
legislature, at least one-half of one percent but not
more than three percent of the total number of
qualified signers in the district from which the member
of the legislature may be elected.

App. 85
4. If for a candidate for a county office or superior court
judge, at least one percent but not more than ten
percent of the total number of qualified signers in the
county or district, except that if for a candidate from a
county with a population of two hundred thousand
persons or more, at least one-fourth of one percent but
not more than ten percent of the total number of
qualified signers in the county or district.
5. If for a candidate for a community college district, at
least one-quarter of one percent but not more than ten
percent of the total voter registration in the precinct as
established pursuant to section 15-1441.
Notwithstanding the total voter registration in the
community college district, the maximum number of
signatures required by this subdivision is one
thousand.
6. If for a candidate for county precinct committeeman,
at least two percent but not more than ten percent of
the party voter registration in the precinct or ten
signatures, whichever is less.
7. If for a candidate for justice of the peace or constable,
at least one percent but not more than ten percent of
the number of qualified signers in the precinct.
8. If for a candidate for mayor or other office nominated
by a city at large, at least five percent and not more
than ten percent of the designated party vote in the
city, except that a city that chooses to hold nonpartisan
elections may by ordinance provide that the minimum
number of signatures required for the candidate be one
thousand signatures or five percent of the vote in the

App. 86
city, whichever is less, but not more than ten percent of
the vote in the city.
9. If for an office nominated by ward, precinct or other
district of a city, at least five percent and not more
than ten percent of the designated party vote in the
ward, precinct or other district, except that a city that
chooses to hold nonpartisan elections may provide by
ordinance that the minimum number of signatures
required for the candidate be two hundred fifty
signatures or five percent of the vote in the district,
whichever is less, but not more than ten percent of the
vote in the district.
10. If for a candidate for an office nominated by a town
at large, by a number of qualified electors who are
qualified to vote for the candidate whose nomination
petition they are signing equal to at least five percent
and not more than ten percent of the vote in the town,
except that a town that chooses to hold nonpartisan
elections may provide by ordinance that the minimum
number of signatures required for the candidate be one
thousand signatures or five percent of the vote in the
town, whichever is less, but not more than ten percent
of the vote in the town.
11. If for a candidate for a governing board of a school
district or a joint technical education district, at least
one-half of one percent of the total voter registration in
the school district or joint technical education district
if the board members are elected at large or one
percent of the total voter registration in the single
member district if governing board members are
elected from single member districts or one-half of one
percent of the total voter registration in the single

App. 87
member district if joint technical education district
board members are elected from single member
districts. Notwithstanding the total voter registration
in the school district, joint technical education district
or single member district of the school district or joint
technical education district, the maximum number of
signatures required by this paragraph is four hundred.
12. If for a candidate for a governing body of a special
district as described in title 48, at least one-half of one
percent of the vote in the special district but not more
than two hundred fifty and not fewer than five
signatures.
B. The basis of percentage in each instance referred to
in subsection A of this section, except in cities, towns
and school districts, shall be the number of qualified
signers as determined from the voter registration totals
as reported pursuant to section 16-168, subsection G on
March 1 of the year in which the general election is
held. In cities, the basis of percentage shall be the vote
of the party for mayor at the last preceding election at
which a mayor was elected. In towns, the basis of
percentage shall be the highest vote cast for an elected
official of the town at the last preceding election at
which an official of the town was elected. In school
districts or joint technical education districts, the basis
of percentage shall be the total number of active
registered voters in the school district or joint technical
education district or single member district, whichever
applies. The total number of active registered voters for
school districts or joint technical education districts
shall be calculated using the periodic reports prepared
by the county recorder pursuant to section 16-168,

App. 88
subsection G. The count that is reported on March 1 of
the year in which the general election is held shall be
the basis for the calculation of total voter registration
for school districts or joint technical education districts.
C. In primary elections the signature requirement for
party nominees, other than nominees of the parties
entitled to continued representation pursuant to
section 16-804, is at least one-tenth of one percent of
the total vote for the winning candidate or candidates
for governor or presidential electors at the last general
election within the district. Signatures must be
obtained from qualified electors who are qualified to
vote for the candidate whose nomination petition they
are signing.
D. If new boundaries for congressional districts,
legislative districts, supervisorial districts, justice
precincts or election precincts are established and
effective subsequent to March 1 of the year of a general
election and prior to the date for filing of nomination
petitions, the basis for determining the required
number of nomination petition signatures is the
number of qualified signers in the elective office,
district or precinct on the day the new districts or
precincts are effective.

